<html>
<title> - SOUTH SUDAN'S CONFLICT AND FAMINE</title>
<body><pre>[Senate Hearing 115-689]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 115-689

                          SOUTH SUDAN'S CONFLICT
                               AND FAMINE

=======================================================================

                                HEARING



                               BEFORE THE



                      SUBCOMMITTEE ON AFRICA AND 
                          GLOBAL HEALTH POLICY




                                 OF THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE




                     ONE HUNDRED FIFTEENTH CONGRESS




                             FIRST SESSION

                               __________

                             JULY 26, 2017

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web:
                         http://www.govinfo.gov






                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
37-782 PDF                 WASHINGTON : 2019 
















                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        




          SUBCOMMITTEE AFRICA AND GLOBAL HEALTH POLICY        

                 JEFF FLAKE, Arizona, Chairman        
TODD YOUNG, Indiana                  CORY A. BOOKER, New Jersey
JOHN BARRASSO, Wyoming               CHRISTOPHER COONS, Delaware
JOHNNY ISAKSON, Georgia              TOM UDALL, New Mexico
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon




                              (ii)        

  
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Flake, Hon. Jeff, U.S. Senator from Arizona......................     1


Booker, Hon. Cory A., U.S. Senator from New Jersey...............     2


Young, Hon. Todd, U.S. Senator from Indiana......................     3


Meservey, Joshua, Senior Policy Analyst, Africa and the Middle 
  East, Douglas and Sarah Allison Center for Foreign Policy, the 
  Heritage Foundation, Washington, DC............................     3
    Prepared statement...........................................     5


Knopf, Payton, Coordinator of the South Sudan Senior Working 
  Group, United States Institute of Peace, Washington, DC........    14

    Prepared statement...........................................    16


Verjee, Aly, Visiting Expert, United States Institute of Peace, 
  Washington, DC.................................................    22

    Prepared statement...........................................    24




                             (iii)        

 
                   SOUTH SUDAN'S CONFLICT AND FAMINE

                              ----------                              


                        WEDNESDAY, JULY 26, 2017

                               U.S. Senate,
   Subcommittee on Africa and Global Health Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
chairman of the subcommittee, presiding.
    Present: Senators Flake [presiding], Young, and Booker.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Committee Subcommittee on Africa and Global Health will come to 
order.
    Today we will look into the ongoing crisis in South Sudan, 
now nearly 4 years long, and assess the policies of the past 
with the goal of informing the policies of the future.
    There is not yet a nominee to serve as Assistant Secretary 
for the African Affairs Bureau at the State Department, but the 
conflict in South Sudan has raged on regardless.
    It is up to Congress to draw attention to the plight of the 
South Sudanese people as the warring parties continue to place 
their interests above their citizens. This conflict has 
displaced almost 4 million people, making this Africa's worst 
refugee crisis. Refugees have fled to Uganda--I think almost a 
million people in Uganda--Ethiopia, Sudan, Kenya, and the DRC, 
increasing the burdens, of course, on these governments. More 
than 7 million people are in need of assistance, with 6 million 
facing severe hunger, and 1.7 million facing famine. That is 
half of the population that is in a bad way facing severe 
hunger.
    Many South Sudanese fear that they may be targeted by 
warring parties because of their ethnicity, and all the while, 
violence between South Sudan's Government and rebel forces 
continues. This violence includes attacks on American citizens 
and diplomats. That happened last summer. And it only increases 
the risk that this conflict will become a regional one, with 
various neighboring governments looking to secure or advance 
their own interests.
    The U.N. panel of experts on South Sudan has even said that 
various parties to the government have deliberately obstructed 
humanitarian access to areas of opposition. The United States, 
obviously, needs to take a fresh look at this crisis to 
determine first and, most importantly, the best way to bring 
peace to the people of South Sudan.
    The United Nations remains deadlocked, with the Security 
Council at a stalemate regarding additional sanctions and an 
arms embargo.
    The peace agreement from 2015 has also been called into 
question, all of this after the United States has contributed 
more than $11 billion to South Sudan in total since its 
independence.
    I look forward to hearing what our witnesses have to say 
regarding the conflict and the path forward. I hope the U.S. 
can soon formulate a policy with regard to South Sudan that can 
bring an end to this lasting conflict.
    I want to compliment and thank ranking minority member 
Senator Booker for insisting that we hold this hearing and for 
his interests in finding a solution to the issues that we have 
there, and with that, I will turn to him for an opening 
statement.

               STATEMENT OF HON. CORY A. BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much. First of all, I want 
to thank my ranking member for his work on this issue long 
before I got on the Senate Foreign Relations Committee. His 
leadership has been critical.
    I do not want to repeat the data and statistics that he 
already mentioned, but we know the gravity of this crisis is 
something of stunning proportions, the amount of human 
suffering and misery. The amount of famine and dislocation is 
agonizing and painful.
    One of you all wrote in your testimony in a sense 
indicating that there is a fatigue almost in Washington about 
these issues. My assurance is that there is no fatigue on this 
subcommittee, and it is something that we urgently want to see 
addressed and addressed in the correct fashion.
    I want to try to communicate a sense of urgency to the 
administration that a failure to put individuals that are 
focused on this crisis in place is in my opinion a contributing 
factor to the continuance of this crisis. As was said, at least 
indicated by more than one of the testimonies that was 
submitted, the United States has an essential role to play in 
resolving this conflict. I know there are some differences 
about the approach. But our global leadership is essential, and 
our leadership in this crisis is as well.
    I think it was important, as was pointed out in one of the 
testimonies, that this is not just about Sudan either. In some 
senses, this problem is being aggravated by regional proxy 
conflicts and tensions that have very much vital U.S. interests 
in the surrounding nations. And so from our interest in 
counterterrorism, our interest in greater stability and peace 
in that region, our interests in energy and economic expansion, 
all of this holds America's interests.
    But most of all--and I know I speak for Senator Flake on 
this--we cannot sit here in the United States while there is 
such a moral crisis going on in South Sudan, and the values 
that I hold as an American urge me to further push and compel 
the administration to craft a strategy. As we will hear, there 
are differences in the strategies that are being advocated for, 
but for us to have a lack of a strategy right now is wholly 
unacceptable and, again, contributing to the nightmare that 
millions of people are experiencing in that region.
    And so with that, again I want to thank the leadership of 
Senator Flake, not just now but over previous years in focusing 
on this issue and trying to bring light and attention to this 
moral crisis.
    Senator Flake. Thank you, Senator Booker.
    Do you have any opening statement to make? Senator Young?

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. I just want to commend you, Mr. Chairman and 
our ranking member, for holding this hearing. I know that South 
Sudan is plagued with many challenges, most of them of human 
design and exacerbation. And so hopefully in the course of this 
hearing, we will learn more about what is going on right now. I 
think that is part of the intention but also what substantively 
we can do to make a difference. I know we can continue to shine 
a light on the situation, but if there are policy initiatives 
we might embrace, things we might initiate, that will certainly 
be instructive to me.
    So without further delay, I will turn it back to you, Mr. 
Chairman.
    Senator Flake. Thank you, Senator Young. It is great to 
have Senator Young on the subcommittee, given his interest and 
hard work on Africa.
    For our witnesses, Mr. Josh Meservey is Senior Analyst for 
Africa and the Middle East with the Heritage Foundation; Mr. 
Payton Knopf, currently a consultant with the United States 
Institute for Peace, previously served on the U.N. Panel of 
Experts on South Sudan. I met with both these individuals in my 
office. I really look forward to their testimony. Also, we are 
glad to have Mr. Aly Verjee, who is a visiting fellow also with 
the U.S. Institute of Peace.
    I look forward to your testimony. Please try to keep it 
around 5 minutes. We have a nominations hearing directly 
following this and then have votes at 11:30. So we have to wrap 
it up in time for that. But thank you for being here. Mr. 
Meservey?

STATEMENT OF JOSHUA MESERVEY, SENIOR POLICY ANALYST, AFRICA AND 
 THE MIDDLE EAST, DOUGLAS AND SARAH ALLISON CENTER FOR FOREIGN 
        POLICY, THE HERITAGE FOUNDATION, WASHINGTON, DC

    Mr. Meservey. Thank you. Chairman Flake, Ranking Member 
Booker, and members of the committee, thank you for inviting me 
to testify today. Thank you as well for your strong advocacy 
for wise and committed U.S. action on what is undoubtedly one 
of the worst conflicts in the world today.
    My name is Joshua Meservey. I am the Senior Policy Analyst 
for Africa and the Middle East at The Heritage Foundation. The 
views I express in this testimony are my own and should not be 
construed as representing any official position of The Heritage 
Foundation.
    Mr. Chairman, we now have nearly 4 years' worth of evidence 
showing that U.S. policy in South Sudan has failed. The warring 
parties comprehensively violated, sometimes within days, 
sometimes within hours, each of the accords they signed during 
the international negotiations the U.S. supported. The collapse 
of the negotiations was not due to insufficiently persuasive or 
determined diplomacy by the international community, including 
American diplomats. The primary obstacles to peace are the many 
unresolved grievances inside the country and the leadership on 
all sides of the conflict exploiting those grievances to attain 
power. The leaders driving this violence are uninterested in 
peace. Agreements reached between parties committed to violence 
will fail.
    Unfortunately, U.S. policy did not reflect this reality. 
Instead, the U.S. remained supportive of the negotiations even 
after it became clear that the signees of the many agreements 
did not intend to honor them.
    Furthermore, despite the stream of warnings issued, the 
U.S. did not assertively penalize the warring parties for their 
repeated flouting of the agreements and the crimes their forces 
committed. Because of this, South Sudan's leaders almost 
certainly believed, quite rationally, that they could pursue 
their war with few penalties. The U.S. must not return to the 
same failed policy of supporting counterproductive negotiations 
that also maintain the illusion that the South Sudanese 
Government, headed by President Salva Kiir, are legitimate and 
responsible actors.
    Fortunately, indications are that the current 
administration is not invested in trying to resurrect a nearly 
2-year-old peace deal that has proven unsustainable and was 
signed when the situation was dramatically different.
    The U.S. should, instead, enact a policy that puts as much 
pressure as possible on the warring parties so they will see 
peace as in their best interests. Even if increased pressure 
does not change their calculations, it could influence the 
facts on the ground to the point that genuine peace 
negotiations become possible. Such pressure would also impose a 
heavy cost on the regime for its deliberate and outrageous 
attacks on American diplomats and citizens in July 2016.
    Holding the warring parties accountable should include 
cutting all diplomatic ties with the government. Building a 
painful sanctions regime targeting the directors and 
perpetrators of the violence. Creating a coalition of the 
willing for an arms embargo and a range of other measures I 
outline in my written testimony.
    Throughout this effort, the U.S. should engage directly 
with the people of South Sudan as frequently as possible. 
Bypassing those that fall for the violence would potentially 
drain their support and could embolden those seeking peace.
    What I am suggesting will be difficult, particularly as 
many of the regional states have their own interests in South 
Sudan that will complicate bringing concerted pressure against 
all sides.
    Uganda, for instance, intervened early in the conflict to 
prop up the Kiir regime. Several senior SPLA generals, 
including one under U.S. sanctions and one accused of war 
crimes, purportedly maintain homes in Uganda. Robust diplomacy 
will be necessary to overcome such obstacles.
    We must be mindful as well of the devastating humanitarian 
crisis in South Sudan. Aid organizations' prompt and determined 
response to the crisis ameliorated the famine declared in 
February 2017. However, the overall food situation has 
deteriorated in the country. As you noted in your opening 
remarks, Senator, now about 6 million South Sudanese do not 
have enough access to food. 1.7 million are on the cusp of 
famine. The U.S. should respond by leading an international 
effort to help front-line countries care for refugees and to 
deliver emergency aid inside South Sudan. However, 
organizations should deliver aid in a way that reasonably 
ensures it remains out of government's and rebel clutches.
    Mr. Chairman, the best chance to end the violence in South 
Sudan in as short a time as possible is to reorient American 
policy to pressure the warring parties to the point they 
believe peace is in their best interests. Failing that, 
increased pressure could lead to changes inside the country 
that make genuine peace agreements attainable. Continued 
negotiations in the current context and the failure to 
substantively pressure the regime merely embolden those 
victimizing the people of South Sudan.
    Thank you for your kind attention. I look forward to your 
questions.
    [Mr. Meservey's prepared statement follows:]


                 Prepared Statement of Joshua Meservey

    Chairman Flake, Ranking Member Booker, and members of the 
committee, thank you for inviting me to testify today on this pressing 
topic. Thank you as well for your strong advocacy for wise and 
committed U.S. action on what is one of the worst conflicts in the 
world today. With your permission, I would like to submit my written 
testimony into the record.
    My name is Joshua Meservey. I am the Senior Policy Analyst for 
Africa and the Middle East at The Heritage Foundation. The views I 
express in this testimony are my own and should not be construed as 
representing any official position of The Heritage Foundation.
South Sudanese Independence and the Rapid March to Violence
    Mr. Chairman, as you are aware, there is an unfortunate history of 
violence in South Sudan driven by competition for resources and long-
standing political, ethnic, and personal grievances. Even in the midst 
of fighting successive wars against a brutal common enemy in the north, 
armed groups in the south frequently turned their guns on each other.
    The Comprehensive Peace Agreement signed in 2005 by the Sudanese 
government and the Sudan People's Liberation Movement/Army (SPLM/A) 
ended most of the north-south fighting, but did not resolve the many 
fractures within South Sudanese society, including those within the 
SPLM/A. Obtaining government power only raised the competitive stakes 
as governance became a struggle among senior officials for power and 
the opportunity to distribute looted state resources to their often 
tribal-based patronage networks.\1\
    In April 2010, the South Sudanese elected Salva Kiir--a Dinka 
propelled to the head of the SPLM/A after Garang died in a helicopter 
crash in 2005--in a landslide as the first president of what was then 
the semi-autonomous region of South Sudan.\2\ In January 2011, the 
south voted overwhelmingly to part from Sudan.
    Upon independence, Salva Kiir and Vice President Riek Machar, a 
Nuer, took control of a country in name only. Exacerbating the 
challenge of unresolved grievances was the legacy of decades of war: 
more than 2.5 million killed, and 4.5 million displaced.3South Sudan 
had virtually no infrastructure, and extreme rates of abject poverty, 
illiteracy, and child malnutrition. 4 It had natural-resource wealth 
but only effectively exploited oil, on which it was heavily dependent 
for government revenues. 5 Unpacified armed groups still roamed parts 
of South Sudan, and tensions over contested border regions with Sudan 
occasionally precipitated armed clashes.
    South Sudan did have broad international support, and billions of 
dollars' worth of aid poured into the country. Yet South Sudan most 
needed transformational, principled leadership to overcome the 
dysfunction at the heart of the country. Unfortunately, its leadership 
proved to be a key part of the problem.
    In 2013, in response to increasing challenges from within the SPLM 
to his authority,6 Kiir fired Vice President Machar and the entire 
cabinet.\7\ Not long after, on December 15, 2013, fighting within the 
Presidential Guard unit of the SPLA broke out in the capital, Juba. 
Kiir claims that Machar attempted a coup, but subsequent investigations 
by the African Union and the U.S. found no evidence for Kiir's 
accusations.\8\ Other reports say that Kiir-aligned Dinka elements of 
the Presidential Guard tried to disarm the Machar-aligned Nuer 
elements.\9\
    Machar escaped and formed the Sudan People's Liberation Movement/
Army-In Opposition (SPLM/A-IO). The fighting rapidly spread throughout 
Juba--where Dinka fighters went door to door executing Nuer 
civilians\10\--and eventually to seven of South Sudan's ten states,\11\ 
though the heaviest fighting was in the opposition--stronghold northern 
states of Jonglei, Unity, and Upper Nile.\12\ Neither side gained a 
decisive advantage, and both routinely committed atrocities, including 
ethnic-based killings, mass rape, kidnappings, and forced 
cannibalization.\13\ As many as 20,000 Nuer may have been killed in the 
first three days of violence alone.\14\
    The fighting was largely uninterrupted by the various cease-fires 
that the international community pressured Kiir and Machar into 
signing. A regional body, the Intergovernmental Authority on 
Development (IGAD), led the waves of negotiations that resulted in at 
least 11 agreements committing the parties to peace. All were broken 
almost immediately.
    The presence of the U.N. Mission in South Sudan (UNMISS), a 
peacekeeping force established in 2011 on the occasion of South Sudan's 
independence, did little to deter the combatants. The U.N. increased 
UNMISS's troop strength and refined its mandate in response to the 
escalating violence in the country,\15\ yet it still had little 
deterrent effect and repeatedly failed in its responsibility to protect 
civilians.
    In August 2015, again under intense international pressure, the two 
sides agreed to form a transitional government\16\ that quickly fell 
apart. In July 2016, Machar's and Kiir's forces in Juba clashed. Kiir 
re-fired Machar, who is now in exile in South Africa. Kiir then stocked 
most of the government positions reserved by the peace agreement for 
the SPLM/A-IO with loyalists, effectively cutting off any hope that 
non-Dinkas had of political representation.\17\
    During the July violence, the Presidential Guard that answers 
directly to Kiir\18\ attacked Westerners and Americans specifically, 
including shooting at a convoy carrying, among others, the U.S.'s 
second-highest-ranking diplomat in South Sudan. Fortunately, the 
Americans escaped unharmed.\19\
    Other Americans were not as fortunate four days later when a group 
of South Sudanese soldiers, including from the Presidential Guard, 
attacked the Terrain Hotel compound that housed international workers. 
In what a later U.N. investigation characterized as an orchestrated 
assault,\20\ the soldiers sought out Americans, beating those they 
found. They gang-raped several Western women, and murdered a South 
Sudanese journalist before the onslaught ended four hours later.\21\
    The war revealed the dizzying number of divisions in the country. 
An estimated 70 percent of the SPLA's formal forces deserted or 
defected after the conflict began.22 Some Nuer remain loyal to 
Kiir,\23\ but many high-ranking Nuer soldiers and officers joined 
Machar.\24\ Other opposition forces include militias loyal to different 
opposition leaders, tribal self-defense militias, and groups 
preoccupied with local issues that sometimes align with SPLM/A-IO 
goals.\25\
    The chaos has driven the country into even deeper misery. The 
fighting has spread south into the equatorial region around Juba.\26\ 
As of July 20, 2017, nearly 2 million South Sudanese had fled to 
neighboring countries. As of June 2017, another 1.9 million were 
internally displaced.\27\ Fifty percent of South Sudanese have 
insufficient food, with 1.7 million on the cusp of famine.\28\
    A U.N. fact-finding mission determined that ethnic cleansing via 
killing, starvation, and rape is occurring in parts of the country, and 
warned of the potential for genocide. Ethnic hate speech is on the rise 
as well,\29\ and refugees fleeing the violence tell stories of 
ethnically based killing by all sides of the conflict.\30\
A Failed U.S. Policy
    The U.S.'s policy towards South Sudan has been to support 
diplomatically and financially the IGAD-led negotiation process. Since 
the opening days of the conflict, some of the U.S.'s most senior 
officials engaged with the South Sudanese in an attempt to bring 
peace.\31\ Part of the engagement was a stream of lamentations--at 
least 76 official statements from the White House and State Department 
between December 2013 and January 2017--over the worsening conflict, 
pleas to the combatants to stop the violence, and public warnings about 
the consequences of not doing so.\32\
    Yet the various agreements that IGAD and the rest of the 
international community arm-twisted the sides into signing were all 
broken almost immediately, and the U.S. response to the repeated 
scorning of its admonitions was tepid and inconsistent. Even after the 
South Sudanese army attacked American diplomats and civilians, the U.S. 
continued to cooperate with the government on peace negotiations and in 
providing technical assistance.\33\ This likely affirmed the South 
Sudanese elites' belief that there is little to personally fear from 
the U.S. for their behavior.
    The U.S. did suspend direct military assistance to the SPLA after 
the war broke out in December 2013,\34\ and later sanctioned six 
military leaders from both sides of the conflict. Yet the U.S. 
sanctions do not include many of those most responsible for the 
violence, such as Salva Kiir or Riek Machar. In December 2016, American 
diplomats tried to extend the U.N. sanctions regime to Machar and 
several SPLM/A officials. The motion that also included an arms 
embargo--which the U.S. had threatened for more than two years--failed, 
to the delight of the South Sudanese government.\35\
    The U.S. also failed to capitalize on moments when galvanizing the 
international community for action against the South Sudanese regime 
would likely have been easier. In August 2014, unidentified militants 
shot down an UNMISS helicopter, killing three Russian crew members.\36\ 
In February 2016, uniformed SPLA soldiers participated in the slaughter 
of civilians sheltering in a Protection of Civilians (POC) site in 
Malakal, with little American response beyond a joint statement with 
Norway and the United Kingdom three days later.\37\ After the attacks 
on the American diplomatic convoy and the Terrain Hotel compound in 
July 2016, the U.S. also failed to use its self-evident right to 
penalize such provocations.
    The rest of the international community has done little better. 
IGAD has not substantively punished either side for violating the 11 
agreements, or for their repeated attacks against U.N. and IGAD 
personnel and facilities.\38\ The U.S.-backed U.N. motion extending 
sanctions and imposing an arms embargo failed because nine countries 
abstained.\39\ The South Sudanese government frequently impedes UNMISS 
movements despite its U.N. authorization to move freely,\40\ and for 
months resisted a U.N.-authorized Regional Protection Force before 
acquiescing. It reneged after the arms embargo failed at the U.N.\41\
South Sudan's Leadership: Inadequate for Peace
    The South Sudanese leaders' long history of promptly breaching 
agreements suggests they are determined to use violence to achieve 
their goals, and are cynically manipulating peace talks for their own 
ends.\42\ The overtly ethnic nature of many of the government's 
policies, and the frequent war crimes their forces commit\43\--which 
are so systematic and widespread an African Union Commission report 
found they are likely part of state policy\44\--further demonstrate the 
leadership's disinterest in peace.
    Both sides victimize civilians in other ways. Since December 2013, 
84 aid workers have been killed in South Sudan, and on hundreds of 
occasions have been assaulted and intimidated.\45\ South Sudanese 
security services frequently block humanitarian convoys and loot 
supplies from aid groups and civic organizations, such as hospitals and 
schools.\46\ During the July 2016 violence in Juba, government forces 
pillaged 4,500 tons of food and about 20,000 gallons of diesel, causing 
nearly $30 million in damages, from a World Food Programme warehouse. 
The looted food would have fed 220,000 people for a month.\47\
    In the midst of the suffering in South Sudan, the elites' extreme 
corruption is all the more grotesque. Kiir and various relatives hold 
stakes in nearly two dozen companies operating in South Sudan, one of 
which was involved in a scheme that embezzled hundreds of millions of 
dollars from the state.\48\ Kiir supposedly owns tens of thousands of 
cows worth millions of dollars,\49\ and the family has a mansion in 
Kenya and a massive ranch outside Juba that Kiir built in the midst of 
the war.\50\
    The government has little to show for the billions of dollars the 
international community has poured into the country, something the 
government's own first vice president has criticized.\51\ It has also 
jailed and tortured an unknown number of political prisoners, and the 
country is ranked fifth-worst in the world for journalists being 
murdered with impunity.\52\
    Kiir and other senior government officials for years have also 
whipped up anti-U.S. and anti-U.N. anger in the country.\53\ It is in 
this context that the South Sudanese armed forces attacked the American 
diplomatic convoy and the Terrain Hotel compound.
    Finally, Kiir's control over his forces is tenuous. He appealed to 
his troops to stop fighting during the Juba violence in July, but they 
ignored him for several days.\54\ The government is in financial crisis 
and cannot pay many of its soldiers, leading to restlessness and 
defections. Opposition forces are perhaps even more fractured, as they 
are motivated by a broad range of interests and loyalties.\55\ If Kiir 
cannot control his men, and as there is no unifying opposition leader, 
there is little reason to believe the elites can deliver peace to the 
country.
The Difficult Geopolitical Context
    Many of South Sudan's neighbors have their own interests inside the 
country that makes concerted action against all culpable South Sudanese 
parties difficult. Uganda, for instance, has a long history of 
supporting the SPLA, and intervened early in the conflict to protect 
Salva Kiir's government.\56\
    A broader unified international response will also be challenging. 
China has extensive investments in South Sudan that it wants to 
protect,\57\ and is generally wary of American foreign policy goals, as 
is Russia. The American-supported U.N. resolution on sanctions and an 
arms embargo that failed in December 2015 are examples of how difficult 
it is to get international consensus for action.
    Similarly, hopes of assembling and deploying a military force large 
enough and competent enough to stop the violence are unrealistic. South 
Sudan is nearly the size of Texas, and there is a collage of armed 
groups scattered throughout the country. Only a few countries in the 
world have sufficient military resources to impose peace on South 
Sudan, and they are unlikely to shoulder on their own the burden of a 
costly and open-ended military intervention in a strategically 
unimportant country. UNMISS does not have the mandate, or, given how 
flawed the mission is,\58\ the capabilities for such a task either.
The Case for Accountability
    The failure to bring peace to South Sudan is not due to 
insufficiently persuasive or determined diplomacy, nor to the absence 
of a perfectly worded cease-fire to which all sides would agree. The 
primary obstacles to peace are the many unresolved grievances inside 
the country, and the leadership on all sides of the conflict exploiting 
those grievances to attain power.\59\ The increasingly prominent ethnic 
component to the fighting means it is increasingly existential as well, 
hardening combatants' determination to fight.
    Because the IGAD process relies on good faith negotiations, it 
cannot succeed in the current environment. Believing peace negotiations 
could work long after it was clear the combatants were committed to 
violence has already hurt the effort to bring peace to South Sudan. The 
international community's pursuit of the chimera of a sustainable peace 
deal allowed the combatants to evade responsibility, and delayed the 
formulation of alternative policies.
    Returning to the same failed negotiations would be a grievous 
mistake with real consequences. It would further drain whatever 
influence and credibility the U.S. has left with the South Sudanese 
leadership, weaken the efficacy of any future negotiations when the 
atmosphere is conducive to meaningful talks, and continue to give the 
chief purveyors of the violence the cover of meaningless dialogs.
    It is time for a new approach that has a better chance of ending 
the violence than continuing with, or marginally enhancing, a failed 
policy. The only way to move the South Sudanese leadership now is 
through coercive engagement. The U.S. should pursue an accountability-
based policy in South Sudan that would include cutting all diplomatic 
contact with the perpetrators of the violence, working with 
international partners to isolate and punish them, and refusing to 
support any talks that include them, unless there is dramatic change in 
their behavior.
    This approach would demonstrate to the South Sudanese government 
that it no longer has the world's most powerful country as a friend, 
and that the U.S. is finally serious about imposing penalties for 
criminal conduct on both sides. It would strip the combatants of the 
fig leaf of legitimacy they receive from negotiations, and would remove 
the temptation for the U.S. to continue wasting time, energy, and 
resources pursuing a meaningful agreement that is impossible to attain 
in the current context. It would be a chance to re-orient American 
engagement toward demanding substantive progress from the South 
Sudanese government in return for the reward of American engagement. It 
would as well rebuild U.S. credibility until the time is right to use 
it.
    An accountability-based policy may also serve to build unity of 
purpose within the international community, particularly among regional 
states with the most to lose. All are anxious to avoid the profoundly 
destabilizing effects of a South Sudanese collapse. If the U.S. 
isolates the perpetrators of the violence, other countries will face 
the possibility that they will primarily bear the burden of South Sudan 
if they do not participate. It could lend urgency and purpose to their 
efforts.
    Isolating the regime could also empower those South Sudanese who 
are genuinely interested in peace. Some of the regime's power likely 
derives from its position as the primary interlocutor with the 
international community. If the South Sudanese see that the regime and 
other culpable elites no longer enjoy the international community's 
good will, it will weaken the malign actors and provide an opportunity 
for any South Sudanese committed to peace.
    In the meantime, the U.S. will need to put as much pressure on the 
combatants as possible. The purpose will be two-fold: to punish those 
who targeted Americans, and to pressure the combatants until their 
calculus changes to where they see peace as being in their interest. If 
that fails, the U.S. will have to wait until the facts on the ground 
change enough that the U.S. can re-engage with a reasonable hope of 
making a positive difference.
    Demanding accountability by disengaging from those causing the 
violence is not abandoning South Sudan. It would be the continuation of 
a decades-long U.S. effort to bring stability and protect innocent 
lives in that country. Cutting off engagement with the violent 
leadership has the best chance of bringing an end to the conflict in 
the shortest amount of time.
Accountability in Practice
    In order to hold the South Sudanese regime accountable for 
attacking Americans, and encourage peace in South Sudan, the U.S. 
should:

   Cut diplomatic ties with the government of South Sudan and others 
        behind the violence. This will include shuttering the U.S. 
        embassy in Juba, evacuating all American diplomatic personnel, 
        and ceasing all formal dialogue with the government of South 
        Sudan and with the opposition. The U.S. should explicitly 
        identify those government entities in South Sudan with which 
        U.S.-funded organizations may engage, as some local government 
        offices might be sufficiently distant in operations from the 
        central government, and sufficiently interested in peace, to be 
        worth engaging.
   Build a comprehensive sanctions regime targeting anyone involved in 
        fomenting violence, including Salva Kiir and Riek Machar. South 
        Sudanese leadership will respond only to pressure that affects 
        them directly. It will take time and active diplomacy with 
        neighboring countries to gain their support, and some countries 
        will likely refuse or cheat anyway. The U.S. will have to focus 
        on building a coalition of the willing, and must be prepared to 
        monitor the sanctions closely and enforce them vigorously. The 
        U.S. can also build a painful regime unilaterally if necessary.
   Expel back to South Sudan, and freeze and seize the assets of, any 
        relatives of the South Sudanese leadership who have benefited 
        from the pillaging of South Sudan. At least one was attending 
        an American university in 2016. Others drive luxury vehicles, 
        jet about the globe in first class, and live in luxurious 
        villas in foreign countries.\60\ The U.S. should pressure the 
        countries harboring those relatives to expel them and freeze 
        their assets. There is recent precedent for this with Teodoro 
        Nguema Obiang Mangue, the son of the president of Equatorial 
        Guinea.\61\
   Build a coalition of the willing for an arms embargo, and name the 
        entities that violate it. A comprehensive arms embargo is 
        unlikely since a U.S.-backed U.N. proposal for one has already 
        failed. South Sudan is also awash in weapons, so an embargo 
        will not have an immediate effect. However, over the long term, 
        even a partial embargo would make it more difficult for the 
        combatants to replenish their weapons stocks. A partial embargo 
        would also expose uncooperative countries to the reputational 
        damage associated with funneling weapons into a disastrous 
        conflict.
   Expel the South Sudanese ambassador and all South Sudanese embassy 
        personnel from the United States. This will demonstrate to the 
        regime that it has missed its many opportunities to engage in 
        good faith with the U.S., and that the U.S. is serious about 
        holding it accountable.
   Restrict the movement of South Sudanese officials attending U.N. 
        activities in New York City. The U.S. is obliged to allow 
        officials, even those under a travel ban, to attend United 
        Nations' meetings in New York City. However, the U.S. 
        government does not have to allow them free access to the rest 
        of the country. The U.S. should impose a 25-mile movement limit 
        on any South Sudanese official attending a U.N. meeting in New 
        York City, and on any South Sudanese U.N. staff with links to 
        those behind the violence.\62\
   Outline a path to re-engagement based on measurable benchmarks of 
        progress. Benchmarks should include concrete demonstrations of 
        the combatants' commitment to peace, such as a cease-fire that 
        is respected, the establishment of a framework for an inclusive 
        reconciliation process, and facilitating the delivery of 
        emergency aid to needy populations.
   Determine which developments would trigger spontaneous U.S. 
        diplomatic re-engagement. The situation in South Sudan could 
        change sufficiently that the U.S. should diplomatically re-
        engage. The new context could include the rise of leaders 
        genuinely committed to peace, the formation of an inclusive 
        political movement with broad grassroots support, or a 
        successful organic reconciliation process with a reasonable 
        chance of further success.
   Articulate U.S. strategy to the public and to partners. An 
        accountability-based approach might be misinterpreted as 
        abandoning South Sudan. The U.S. should clearly and 
        consistently communicate that it is, in fact, designed to bring 
        stability to South Sudan and stop the suffering there as 
        quickly as possible.
   Engage directly with the South Sudanese public where possible. 
        Bypassing those at fault for the violence to engage directly 
        with South Sudanese citizens could embolden those seeking peace 
        and drain support from perpetrators. Such engagement could 
        include radio programs promoting reconciliation and describing 
        American support for the South Sudanese people, and supporting 
        grassroots South Sudanese organizations and movements working 
        to bring peace.
   Determine whether the proposed African Union-run hybrid court to 
        try South Sudanese war criminals can be effective, and, if so, 
        support it. The August 2015 peace agreement provided for the 
        African Union to establish the Hybrid Court for South Sudan to 
        try any South Sudanese implicated in war crimes. The U.S. 
        should wait to see if the African Union creates the framework 
        for an effective court. If it does, the U.S. should support it, 
        as the court would be another means for holding those fomenting 
        the violence accountable.
   Urge all American citizens to leave South Sudan. The government and 
        the opposition may retaliate against any Americans still inside 
        the country. Investigate South Sudanese elites' corruption. 
        Private organizations have already exposed some corruption, but 
        the U.S. government should use its resources and expertise, or 
        sponsor a competent organization, to document the corruption as 
        comprehensively as possible. The results should then be 
        released publicly.
   Engage with neighboring countries to build consensus for unified 
        action. Bringing a measure of peace to South Sudan will require 
        the international community to behave in as unified a manner as 
        possible. The U.S. should focus on building a coalition that 
        can act when the moment is right in South Sudan.
   Lead an international effort to deliver emergency aid, but only in 
        a way that reasonably ensures that it remains out of government 
        and rebel clutches. There is a long history of South Sudanese 
        armed groups seizing humanitarian aid and manipulating it to 
        punish enemies.\63\ Delivering emergency aid without armed 
        groups benefiting will require creative delivery methods and 
        tough decisions that will likely mean that sometimes aid will 
        not reach people who need it, but over the long term will save 
        more lives by not buttressing the groups fighting the war.
   Require any U.S.-funded organizations still operating in South 
        Sudan to reasonably ensure that their operations do not benefit 
        any of the warring groups. Donor aid in South Sudan has at 
        times inadvertently fueled corruption and conflict, and 
        empowered warring groups.\64\ Not only does the U.S. government 
        have a responsibility to American taxpayers to ensure that 
        their money is not wasted, it also has a responsibility to 
        ensure that the same money does not exacerbate the problem it 
        is meant to mitigate.
   Mobilize the international community to help front line countries 
        with refugees. Nearly two million South Sudanese have already 
        fled their country, and receiving states will need further help 
        to house and feed them.
   Document the crimes inside South Sudan for use in any future trials 
        and reconciliation processes. A U.S. withdrawal will make this 
        more difficult, but there are still ways to gather information 
        on what is happening, such as interviewing refugees, analyzing 
        satellite imagery, and consulting with organizations still 
        operating in South Sudan and neighboring countries that have 
        strong intelligence on South Sudan.
   Request that Congress commission a study on what went wrong with 
        U.S. engagement in South Sudan. The U.S. invested a great deal 
        of energy, time, and money into South Sudan, only to have the 
        country fail quickly and spectacularly. The U.S. government 
        needs to determine what went wrong with its South Sudan policy 
        to ensure it does not repeat the mistakes, and to be 
        accountable to taxpayers for the billions of dollars it spent 
        with no return. An unclassified version of the report should be 
        publicly released.

    None of these recommendations is a silver bullet. Many of them have 
flaws, loopholes, and work-arounds. Collectively, however, they can 
demonstrate to the South Sudanese leadership the costs of abusing 
American citizens and manipulating the U.S. government, and could 
precipitate change inside the country to the point where the U.S. can 
diplomatically re-engage with the hope of making a difference.
A Difficult and Painful Road Ahead
    The short history of South Sudan is one of the most disappointing 
stories on Earth. At independence it had immense international goodwill 
and support, yet the rivalries and cleavages that led to so much 
violence in the past quickly led the new country into ruin. The IGAD-
led process that the combatants repeatedly manipulated and flouted is 
stalled with no prospects for success in the future without a dramatic 
change in the situation inside the country. U.S. credibility is gone, 
leeched away by consistent failure to follow through on its many 
threats and entreaties.
    The U.S. has few options left. Its best hope for protecting its 
interests is to re-orient to an accountability-based strategy and to 
punish the regime for its continuous malfeasance that included attacks 
on Americans. The accountability approach may also inspire any elements 
of the South Sudanese regime or society that are genuinely interested 
in peace. Continued pointless negotiations and the failure to 
substantively pressure the South Sudanese regime merely emboldens those 
responsible for the violence, and ensures the continued victimization 
of the people of South Sudan.
    Thank you again for this opportunity to testify, and I look forward 
to any questions you may have.
--------------
References

  1.  Magali Mores, ``Overview of Corruption and Anti-Corruption in 
            South Sudan,'' Transparency International, March 4, 2013.

  2.  Skye Wheeler, ``South Sudan Swears in First Elected President,'' 
            Reuters, May 21, 2010.

  3.  Lauren Ploch Blanchard, ``Conflict in South Sudan and the 
            Challenges Ahead,'' Congressional Research Service, 
            September 22, 2017.

  4.  Daniel Maxwell, Kirsten Gelsdorf, and Martina Santschi 
            Livliehoods, ``Basic Services and Social Protection in 
            South Sudan,'' Secure Livelihoods Research Consortium 
            Working Paper No. 1, July 2012.

  5.  CIA World Factbook, ``Africa: South Sudan,'' January 12, 2017.

  6.  ``Conflicts in South Sudan,'' Enough Project, October 1, 2014.

  7.  UNICEF, ``South Sudan Sitrep,'' No. 1 16-20, December 2013.

  8.  John Tanza, ``South Sudan Government Still Insists Coup Bid 
            Started Conflict,'' Voice of America, October 28, 2015; and 
            Nicole Gaouette, ``U.S.Asks South Sudan to Free Prisoners, 
            Sees No Coup Effort,'' Bloomberg, January 9, 2014.

  9.  Amnesty International, ``Nowhere Safe: Civilians Under Attack in 
            South Sudan,'' May 8, 2014.

 10.  Ibid

 11.  UNMISS, ``United Nations Mission in South Sudan: Background.''

 12.  ``Peace Elusive as South Sudan Marks Three Years of War,'' Daily 
            Mail, December 15, 2016, and Casie Copeland, ``De-
            escalating South Sudan's New Flare Up,'' International 
            Crisis Group, July 12, 2016.

 13.  African Union, ``Final Report of the African Union Commission of 
            Inquiry on South Sudan,'' October 15, 2014, p. 112.

 14  Ibid, p. 114.

 15.  United Nations Security Council, ``Resolution 1996 (2011),'' July 
            8, 2011, and UNMISS, ``United Nations Mission in South 
            Sudan: Background.''

 16.  Marc Santora, ``Salva Kiir, South Sudan's President, Signs Peace 
            Deal with Rebels,'' The New York Times, August 26, 2015.

 17.  United Nations Security Council, ``Interim Report of the Panel of 
            Experts on South Sudan Established Pursuant to Security 
            Council Resolution 2206 (2015),'' November 15, 2016.

 18.  International Crisis Group, ``South Sudan: A Civil War by Any 
            Other Name,'' Africa Report No.217, April 10, 2014.

 19.  This was not the first time that South Sudanese forces shot at 
            Western diplomats. A soldier fired at the U.S. ambassador's 
            armored vehicle in November 2014. In June 2016, a month 
            before the attack on the U.S. convoy, South Sudanese 
            soldiers fired at a Norwegian delegation. Colum Lynch, 
            ``Dinner, Drinks, and a Near Fatal Ambush for 
            U.S.Diplomats,'' Foreign Policy, September 6, 2016.

 20.  Matina Stevis, ``South Sudanese Violence Engulfs Aid Workers, 
            Pushes Nation Closer to the Brink,'' The Wall Street 
            Journal, September 20, 2016.

 21.  Jason Patinkin, ``Rampaging South Sudan Troops Raped Foreigners, 
            Killed Local,'' Associated Press, August 1, 2015, and 
            Michelle Nichols, ``U.N. Peacekeepers Failed to Respond to 
            South Sudan Hotel Attack: Inquiry,'' Reuters, November 2, 
            2016, and United Nations, ``Executive Summary of the 
            Independent Special Investigation into the Violence Which 
            Occurred in Juba in 2016 and UNMISS Response,'' November 1, 
            2016.

 22.  International Crisis Group, ``South Sudan: A Civil War by Any 
            Other Name,'' p. 8.

 23.  ``Kiir Promises to Retain Loyal Nuer in Transitional Govt,'' 
            Radio Tamazuj, October 28, 2014.

 24.  Amnesty International, ``Nowhere Safe: Civilians Under Attack in 
            South Sudan.''

 25.  International Crisis Group, ``South Sudan: A Civil War by Any 
            Other Name.''

 26.  ``Peace Elusive as South Sudan Marks Three Years of War,'' Daily 
            Nation, December 15, 2016, and Copeland, ``De-escalating 
            South Sudan's New Flare Up.''

 27.  United Nations Refugee Agency, ``South Sudan Situation,'' July 
            20, 2017.

 28.  Deepmala Mahla, ```The Four Famines': Root Causes and a 
            Multilateral Action Plan,'' testimony before the 
            Subcommittee on Multilateral International Development, 
            Multilateral Institutions, and International Economic, 
            Energy, and Environmental Policy, Committee on Foreign 
            Relations, U.S. Senate, July 18, 2017.

 29.  United Nations Human Rights Office of the High Commissioner, 
            ``South Sudan: Dangerous Rise in Ethnic Hate Speech Must Be 
            Reined in--Zeid,'' October 25, 2016.

 30.  Elias Biryabarema, ``Hatred Spills Beyond South Sudan Along With 
            Refugees,'' Reuters, December 15, 2016.

 31.  Including, among others, Secretary of State John Kerry, National 
            Security Advisor Susan Rice, and Assistant Secretary of 
            State for African Affairs Linda Thomas-Greenfield. Linda 
            Thomas-Greenfield, ``South Sudan's Broken Promises,'' 
            testimony before the Committee on Foreign Affairs, U.S. 
            House of Representatives, January 15, 2014.

 32.  For some of the many pleas, condemnations, and regrets the U.S. 
            has issued, see news releases, U.S. Department of State.

 33.  Stevis, ``South Sudanese Violence Engulfs Aid Workers, Pushes 
            Nation Closer to the Brink.''

 34.  U.S. Embassy in South Sudan, ``Clarification regarding U.S. 
            Assistance to South Sudan,'' Africa Newsroom, October 13, 
            2016.

 35.  Colum Lynch, ``U.S. Push to Halt Genocide in South Sudan Unravels 
            at United Nations,'' Foreign Policy, November 30, 2016 and 
            ``S. Sudan Lauds UN Security Councils Failure to Impose 
            Sanctions, Arms Embargo,'' Sudan Tribune, December 25, 
            2016.

 36.  ``South Sudan: Preliminary UN Probe Shows Helicopter Was Shot 
            Down,'' U.N. News Centre, September 9, 2014).

 37.  News release, ``Statement: Troika Condemns Violence at Malakal, 
            South Sudan POC Site,'' February 20, 2016.

 38.  In 2014, the U.N. summed up the violence it and IGAD had suffered 
            to that point: ``the attacks by Government and opposition 
            forces and other groups on United Nations and IGAD 
            personnel and facilities, including the December 2012 
            downing of a United Nations helicopter by the SPLA, the 
            April 2013 attack on a United Nations convoy, the December 
            2013 attack on the UNMISS camp in Akobo, the August 2014 
            shooting down of a UN helicopter by unidentified armed 
            groups, the August 2014 arrest and detention of an IGAD 
            monitoring and verification team, the detentions and 
            kidnappings of UN and associated personnel, and the 2014 
            attacks on the UNMISS camps in Bor and Bentiu.'' News 
            release, ``Security Council Keeps in Place Peace Mission in 
            South Sudan Until 30 May 2015 as it Calls for Immediate 
            Implementation of Cessation of Hostilities Accord,'' United 
            Nations, November 25, 2014.

 39.  Lynch, ``U.S. Push to Halt Genocide in South Sudan Unravels at 
            United Nations.''

 40.  U.S. Embassy in South Sudan, ``U.S. Permanent Representative to 
            the United Nations, on a Draft Security Council Resolution 
            on South Sudan,'' December 23, 2016.

 41.  ``South Sudan Rejects More UN Peacekeepers,'' South Sudan News 
            Agency, January 11, 2017.

 42.  The U.S. Special Envoy for Sudan and South Sudan stated plainly 
            in October 2014: ``[B]oth the government and the opposition 
            have failed to engage the process in good faith or to fully 
            honor their commitments.'' Donald Booth, ``U.S. Policy on 
            Sudan and South Sudan: The Way Forward,'' remarks to the 
            Atlantic Council, October 9, 2014.

 43.  UNICEF, ``Hundreds of Children Recruited by Armed Groups in South 
            Sudan, as Violations Against Women and Children Increase-
            UNICEF,'' August 19, 2016, and Justin Lynch, ``Wave of 
            Ethnic Killings Engulfs Town in South Sudan'' Associated 
            Press, November 17, 2016, and African Union, ``Final Report 
            of the African Union Commission of Inquiry on South 
            Sudan.''

 44.  African Union, ``Final Report of the African Union Commission of 
            Inquiry on South Sudan.''

 45.  United Nations Office for the Coordination of Humanitarian 
            Affairs, ``Aid Worker Killed in Eastern Equatoria,'' 
            Humanitarian Bulletin No. 16, October 20, 2016, and Mahla, 
            `` `The Four Famines': Root Causes and a Multilateral 
            Action Plan.''

 46.  Ibid.; Denis Dumo, ``Aid Convoys Blocked in South Sudan, U.N. 
            Says,'' Reuters, December 1, 2016); and Andrew Katz, 
            ``South Sudanese Troops Steal Backpacks Meant for 
            Children,'' Time, February 4, 2014.

 47.  United Nations, ``Executive Summary of the Independent Special 
            Investigation into the Violence Which Occurred in Juba in 
            2016 and UNMISS Response,'' and Stevis, ``South Sudanese 
            Violence Engulfs Aid Workers, Pushes Nation Closer to the 
            Brink.''

 48.  ``War Crimes Shouldn't Pay, Stopping the Looting and Destruction 
            in South Sudan,'' The Sentry, September 2016.

 49.  Simon Allison, ``Following the Herd: How Cows Fuelled the War in 
            South Sudan, and How They Can Consolidate the Peace,'' 
            Daily Maverick, October 27, 2016.

 50.  ``War Crimes Shouldn't Pay, Stopping the Looting and Destruction 
            in South Sudan,'' The Sentry.

 51.  ``Taban Deng Gai Says the Current Government Is a `Hand-to Mouth' 
            System that Is Not Providing Any Services,'' Nyamilepedia, 
            October 21, 2016.

 52.  Elisabeth Witchel, ``Getting Away with Murder,'' Committee to 
            Protect Journalists, October 27, 2016.

 53.  Lynch, ``Dinner, Drinks, and a Near Fatal Ambush for 
            U.S.Diplomats,'' and John Tanza, ``South Sudan President 
            Kiir in Washington for US-Africa Leaders Summit,'' Voice of 
            America, August 4, 2014.

 54.  ``South Sudan Clashes: Salva Kiir and Riek Machar order 
            Ceasefire,'' BBC, July 11, 2016.

 55.  United Nations, ``Interim Report of the Panel of Experts on South 
            Sudan Established Pursuant to Security Council Resolution 
            2206 (2015).''

 56.  Fanny Nicolaisen, Tove Heggli Sagmo, and Oystein Rolandsen, 
            ``South Sudan Uganda Relations: The Cost of Peace,'' 
            African Center for the Constructive Resolution of Disputes, 
            December 23, 2015.

 57.  ``China Controls 75% of Oil Investments in Sudan: Minister,'' 
            Sudan Tribune, August 3, 2016.

 58.  Simona Foltyn, ``UN Bases in South Sudan Are a `Blessing and a 
            Curse,' '' The Guardian, April 26, 2016, and Medecins Sans 
            Frontieres, ``MSF Internal Review of the February 2016 
            Attack on the Malakal Protection of Civilians Site, and the 
            PostEvent Situation,'' June 2016 and Merrit Kennedy, 
            ``Witnesses: U.N. Peacekeepers Did Nothing as South 
            Sudanese Soldiers Raped Women,'' National Public Radio, 
            July 27, 2016, and United Nations, ``Executive Summary of 
            the Independent Special Investigation into the Violence 
            Which Occurred in Juba in 2016 and UNMISS Response'' and 
            United Nations Secretary-General, ``Note to Correspondents 
            on the Special Investigation and UNHQ Board of Inquiry into 
            the UNMISS Protection of Civilians Site in February 2016,'' 
            June 21, 2016.

 59.  On multiple occasions, senior U.S. government officials 
            explicitly identified the South Sudanese leadership's 
            failures as the reason for the conflict. As just one 
            example, see U.S. Department of State, ``Update on Efforts 
            to Implement the 2015 Agreement on the Resolution of the 
            Conflict in South Sudan,'' September 22, 2016.

 60.  ``War Crimes Shouldn't Pay: Stopping the Looting and Destruction 
            in South Sudan,'' The Sentry.

 61.  Martin de Bourmont, ``Accused of Looting Millions, Son of African 
            Leader Stalls Trial,'' The New York Times, January 4, 2017,

 62.  The U.S. has in the past applied such restrictions on diplomats 
            from Afghanistan, Bulgaria, Cuba, Czechoslovakia, Iran, 
            Libya, Romania, Russia, Sudan, and Vietnam, among others. 
            For an articulation of the U.S. policy, see United Nations, 
            ``Travel Regulations, Immigration, Entry Visa Dominate 
            Proceedings in Meeting of Host Country Committee,'' July 9, 
            2007, For a partial list of countries that have come under 
            the restriction, see Marvine Howe, ``U.N. Panel on U.S. 
            Ties Faces Weightier Issues,'' The New York Times, October 
            17, 1988. For an example of the U.S. restricting the 
            movement of U.N. staff members from a specific country, see 
            United Nations, ``Report of the Committee on Relations with 
            the Host Country,'' 2006.

 63.  Deborah Scroggins, Emma's War (New York: Vintage Books, 2004), 
            pp. 256 and 257, and Claire Metelits, "Back to the Drawing 
            Board: What the Recent Peace Agreement Means for South 
            Sudan," Carnegie Council for Ethics in International 
            Affairs, October 22, 2015.

 64.  Daniel van Oudenaren, ``Politicised Humanitarian Aid Is Fueling 
            South Sudan's Civil War,'' IRIN, February 27, 2017; Lindsay 
            Hamsik, ``A Thousand Papercuts: The Impact of NGO 
            Regulation in South Sudan,'' Humanitarian Practice Network, 
            January 2017; and ``The Taxmen: How Donors Lost Millions in 
            South Sudan's Forex Market,'' Radio Tamazuj, undated.


    Senator Flake. Thank you, Mr. Meservey.
    Mr. Knopf?

   STATEMENT OF PAYTON KNOPF, COORDINATOR OF THE SOUTH SUDAN 
    SENIOR WORKING GROUP, UNITED STATES INSTITUTE OF PEACE, 
                        WASHINGTON, D.C.

    Mr. Knopf. Good morning. Chairman Flake, Ranking Member 
Booker, and members of the committee, thank you for the 
opportunity to testify here before you today. The views I 
express are my own and do not represent those of the U.S. 
Institute of Peace.
    Three years after the outbreak of civil war in South Sudan, 
the state and the 2015 peace agreement designed to end that war 
have unquestionably failed and catastrophically so. As the 
committee is well aware of the horrific impact of these 
failures continue to have on the people of South Sudan, I will 
confine my testimony to another part of the story, the 
increasingly dire consequences for U.S. security interests in 
the region posed by South Sudan's dissolution and how the U.S. 
might respond.
    South Sudan sits at the nexus of intensifying competition 
among five of the United States' core counterterrorism 
partners, Egypt, Ethiopia, Kenya, Sudan, and Uganda, and is a 
sinkhole that is exacerbating competing regional rivalries that 
risk escalating into a broader war with grave implications for 
U.S. security interests.
    Egypt and Ethiopia are locked in what they perceive as a 
zero-sum conflict over the use of the Nile. With South Sudan 
having lined up behind Ethiopia on this issue, South Sudan's 
President Salva Kiir has sided with Egypt against Addis Ababa. 
In addition, Uganda and Ethiopia's competition for regional 
hegemony, Uganda and Sudan's longstanding competition over 
South Sudan, and the demonstrated willingness of all four 
states to engage militarily across their borders compounds the 
volatile regional puzzle.
    Meanwhile, two other U.S. partners, Saudi Arabia and the 
UAE, have increased their commitments in the Horn of Africa, 
including a burgeoning relationship with Ethiopia's archrival 
Eritrea, and Qatar has had deep political and financial 
investments in Sudan for at least the last decade.
    The result is that a war fueled by South Sudan's 
deterioration is in fact part of a broader Red Sea security 
challenge, the implications of which have come into sharp 
relief with the recent GCC confrontation with Doha.
    The United States, therefore, has not only a clear moral 
reason to invest in ending South Sudan's war, but a compelling 
security interest in doing so.
    Fortunately, South Sudan's civil war is not as intractable 
as Syria's, and we should not be overwhelmed by its complexity, 
the dizzying regional Rubik's cube I just outlined 
notwithstanding. This war can be ended diplomatically, but 
doing so will require leadership and commitment from the United 
States and recognition of some fundamental truths about the 
conflict, which I will discuss briefly here but have expounded 
upon in my testimony for the record.
    First, there is not a humanitarian or a peacekeeping 
solution to the war in South Sudan, which is fundamentally a 
political problem.
    Second, to paraphrase Tolstoy, every failed state fails in 
its own way. Despite the very real risk of the war escalating 
into genocide, South Sudan is not Rwanda, and 1 million may not 
be killed in the span of 100 days. That does not, however, 
absolve the United States or the rest of the international 
community from the responsibility and interest in taking urgent 
action to end the war, given the magnitude of the security and 
humanitarian crisis, as several folks have outlined today.
    Third, while there is no shortage of bad actors in South 
Sudan, President Salva Kiir and his allies bear the 
preponderance of responsibility for the largest scale violence 
happening now. However, the international diplomatic approach 
to date, as Joshua alluded to, including the failure to impose 
any meaningful consequences for the countless violations of the 
agreement, have ceded military dominance on the ground to Kiir 
and his regime, perpetuating a belief in Juba that military 
victory is possible and leaving little incentive to compromise. 
Creating the conditions for a negotiated settlement will, 
therefore, require either a degradation of the Kiir regime's 
capacities or an enhancement of the opposition's.
    Fourth, the United States possesses the leverage and a 
number of diplomatic tools to shift the power dynamic vis-a-vis 
Kiir and underscore the unviability of a military solution. For 
example, while a resolution to the civil war is not possible 
without the constructive engagement of South Sudan's neighbors, 
the United States has unique influence over each of them. 
Uganda is a case in point. Donors recently pledged over $350 
million to support Uganda in dealing with refugee flows from 
South Sudan. Yet, weapons transfers to Kiir's regime, 
documented by the U.N. Panel of Experts, that have either been 
facilitated through or by Uganda in the last 3 years suggest 
that the price of these sales may equal or even exceed the 
amount of these pledges. The contradiction whereby Uganda 
continues to protect Kiir's regime on the one hand and then 
receives international praise and financial assistance for 
managing the humanitarian fallout of that regime's actions must 
be resolved.
    The United States could also exert direct leverage on Kiir 
and his cronies by applying financial pressures that do not 
require the U.N. Security Council. The Enough Project has done 
important work to describe at least 15 different options for 
doing so.
    The United States can further play a dispositive role in 
fighting the international legitimacy or lack thereof of Kiir's 
regime. The legal legitimacy of the government is, in fact, 
questionable and that ambiguity provides the United States with 
ample rationale to de-recognize the Kiir regime and/or 
downgrade its diplomatic relationship, which would contribute 
to altering the calculations of the regional governments and of 
Kiir himself, not least because it would call into question his 
privileges and immunities as a sitting head of state.
    Fifth and finally, the humanitarian operation is under 
siege. The Kiir regime is not a willing partner for the 
delivery of humanitarian assistance, is in fact the primary 
impediment, and in many ways benefits from the operation's 
reliance on the capital, Juba, and government-controlled 
infrastructure. New modalities for the delivery of humanitarian 
aid need to be considered in recognition of these facts.
    To conclude, Mr. Chairman, South Sudan's civil war is like 
a rapidly metastasizing cancer that is weakening one of the 
vulnerable seams of the world order. The United States has both 
an abiding interest and the assets necessary to lead a new and 
productive diplomatic initiative to curtail the violence and 
ultimately negotiate a credible political transition. In order 
for such an initiative to succeed, however, the administration 
must immediately designate and empower a senior level official 
with primary responsibility for South Sudan policy who can deal 
directly and effectively with the regional heads of state to 
chart a course out of the abyss.
    Thank you again for the committee's consistent and 
sustained attention to South Sudan and for convening this 
hearing today. I look forward to your questions.
    [Mr. Knopf's prepared statement follows:]


                   Prepared Statement of Payton Knopf

    Chairman Flake, Ranking Member Booker, and members of the 
subcommittee, thank you for convening this hearing on South Sudan and 
for the opportunity to testify today. The views I express here are my 
own and do not represent those of the U.S. Institute of Peace or the 
U.N. Panel of Experts on South Sudan, of which I was the coordinator 
from its inception in May 2015 until April 2017.
    Three and a half years after an elite power struggle precipitated 
the outbreak of civil war, conflict has engulfed every part of South 
Sudan. Both the state itself and a 2015 peace agreement have failed--
and catastrophically so: South Sudan is the world's fastest growing 
refugee crisis, at least one third of the population is displaced 
internally or in neighboring states, and 6 million people--more than 60 
percent of the population that remains--are severely food insecure.
    The war has mutated into an existential struggle between tribes 
and, increasingly, among sub-clans within tribes as the centrifugal 
forces tearing the country apart accelerate, with no end in sight. In a 
study conducted by the South Sudan Law Society using the Harvard Trauma 
Questionnaire, 41 percent of South Sudanese exhibited symptoms 
consistent with post-traumatic stress disorder (PTSD)-rates comparable 
to those of post-genocide Rwanda and post-genocide Cambodia. That was 
two years ago.
    But the human cost of the war is just one part of the story. More 
fundamental to U.S. interests are the increasingly dire consequences 
for regional security posed by South Sudan's dissolution. South Sudan 
sits at the nexus of intensifying competition among five of the United 
States' core counter-terrorism partners in the region--Egypt, Ethiopia, 
Kenya, Sudan, and Uganda--and left unresolved, the conflict there risks 
provoking a larger regional war.
    Construction of the Great Ethiopian Renaissance Dam (GERD)--the 
largest infrastructure project in the country's history on which 
Ethiopia's ruling elite has staked considerable prestige--will likely 
be completed within the next year. A core narrative of President Abdel 
Fattah Al Sisi's government, however, is that Ethiopia exploited 
Egypt's weakness during the rule of Mohammed Morsi to secure the 
acquiescence of the regions' other states to the GERD project, isolate 
Egypt, and violate long-standing agreements on the use of the Nile 
water that date to British colonial rule.
    With Sudan having backed Ethiopia on the GERD, South Sudan's 
president, Salva Kiir, has deflected pressure from Addis Ababa, which 
has to date led the regional mediation effort to negotiate an end to 
the war, by playing his advantage with Cairo. In exchange for aligning 
with Egypt on the Nile dispute, Kiir has secured Egyptian support in 
the U.N. Security Council--where Ethiopia and Egypt both currently hold 
seats--and in the African Union. Sudanese President Omar Al Bashir has 
publicly accused Egypt of providing arms to Kiir's regime, and the U.N. 
Panel of Experts on South Sudan has documented sales of equipment from 
Egypt to Kiir's military. Despite signing two protocols with Ethiopian 
prime minister Hailemariam Desalegn pledging not to support armed 
groups in each other's territories, there are multiple reports that 
Kiir has allowed Egypt to train Ethiopian armed opposition groups 
within South Sudan, possibly with Eritrean collusion, while several 
prominent South Sudanese opposition leaders move freely in and out of 
Addis Ababa. Ethiopia has also blamed Eritrea for orchestrating an 
attempted attack on the dam in March.
    In addition, Uganda and Ethiopia's competition for regional 
hegemony, Uganda and Sudan's competition over South Sudan, and the 
demonstrated willingness of all four states to engage militarily across 
their borders compounds the volatile regional puzzle. In 2012, Sudan 
and South Sudan engaged in a military confrontation along the border 
that nearly escalated into a full-scale war, and both provide support 
to rebel groups operating in each other's territories. Uganda deployed 
several battalions into South Sudan at the beginning of the civil war 
in 2013 to protect the government from the armed opposition. The 
Ethiopian Defense Forces (EDF) have undertaken operations into South 
Sudan in response to raids into western Ethiopia by South Sudanese 
tribal militia.
    The escalation of Egyptian-Ethiopian and Egyptian-Sudanese 
competition in South Sudan, inevitably drawing Uganda, and potentially 
Kenya, into the fray, will compromise the regional counter-terrorism 
architecture in which the United States has invested so heavily. U.S. 
security assistance to Egypt exceeds that of every other country in the 
world except Israel, and in the last three fiscal years, the United 
States has also provided over $223 million to Uganda and over $92 
million to Ethiopia.
    In 2002, former Ethiopian prime minister, Meles Zenawi, in fact 
predicted a ``nightmare scenario'' for the Horn of Africa involving an 
unstable South Sudan and Egyptian-Ethiopian competition.\1\ Yet the 
current geopolitical dynamics are more complicated than Meles even 
predicted given the increasing political and financial commitments in 
the region by two other U.S. partners--Saudi Arabia and the United Arab 
Emirates--including with Eritrea in exchange for assistance in 
prosecuting the war in Yemen; with Sudan in exchange for its shift away 
from Iran; and with Egypt to shore up Sisi's regime against the Muslim 
Brotherhood and ISIS. Qatar has also invested substantial political and 
financial capital in Sudan over the last decade. The result is that a 
war sparked by South Sudan's deterioration is in fact part of a broader 
``Red Sea security challenge,'' the implications of which have come 
into sharp relief with the recent Egyptian, Saudi, Emirati, and 
Bahraini confrontation with Qatar.
---------------------------------------------------------------------------
    \1\ Alex de Waal, ``Africa's $700 Billion Problem Waiting to 
Happen,'' Foreign Policy, March 17, 2016.
---------------------------------------------------------------------------
    The humanitarian emergency in South Sudan and consequent refugee 
flows have further exacerbated these security challenges in a region 
whose population is projected to increase by 40 percent in the next 15 
years and by at least 105 percent by 2050.\2\ Given these expected 
demographic trends, it is not hard to imagine an exponential increase 
in refugee flows out of the Horn of Africa should a regional war erupt 
out of South Sudan's civil war. One need only look to the lesson of the 
Rwandan genocide to see how a horrific humanitarian crisis resulted in 
a mass exodus of the population and sparked a broader war in Congo in 
which nine African governments ultimately became involved. There are no 
perfect historical analogies. But as the adage holds, history may not 
repeat itself, but it often does rhyme.
---------------------------------------------------------------------------
    \2\ 2016 World Population Data Sheet (Washington, DC: Population 
Reference Bureau, 2016)
---------------------------------------------------------------------------
    The United States therefore has not only a clear moral reason to 
invest in ending South Sudan's war but a compelling security interest 
in doing so. The United States remains the largest donor to 
humanitarian relief efforts as well as, through its treaty obligations, 
to the U.N. peacekeeping force in the country. But neither humanitarian 
aid nor peacekeeping is going to solve what is fundamentally a 
political problem requiring a political solution.
    While the Intergovernmental Authority on Development (IGAD) is 
attempting to revitalize the collapsed 2015 peace agreement, the myriad 
challenges to the success of this effort--not least the lack of any 
discernible desire by the belligerents to end the war--warrants 
consideration of a new and more productive diplomatic strategy. The 
July 20 statement by the United States, the United Kingdom, Norway, and 
the European Union indicating a ``wait and see'' approach to the 
revitalization effort before committing further resources to support 
implementation of the agreement underscores the urgency of laying the 
foundation for such a strategy.
    Fortunately, South Sudan's civil war is not as intractable as 
Syria's. There are no great power politics at play. There is no 
competition between the United States and another external actor such 
as Iran or Russia. There is no evidence of the presence of jihadi 
elements. South Sudan's brutal conflict can be ended, but doing so will 
require robust leadership and commitment from the United States and 
recognition of six fundamental truths about the war.
    First, to paraphrase Tolstoy, every failed state fails in its own 
way. Despite the very real risk of the war escalating into genocide, 
South Sudan is not Rwanda, and one million people may not be killed in 
the span of 100 days, as tragically occurred there. That does not, 
however, absolve the United States or the rest of the international 
community--including the United Nations, the African Union, IGAD 
collectively, South Sudan's neighbors individually, or our European 
partners--from the responsibility of taking urgent action to end the 
war. The fact is that the South Sudanese nation is abandoning their 
state--the one million South Sudanese who have fled into Uganda alone, 
most in just the last twelve months, is a clear illustration. The 
country is slipping away, perhaps irreparably, and the time to act is 
now.
    Second, we cannot be overwhelmed by the complexity of the war and 
claim that as an excuse for an ineffectual response. Notwithstanding 
the regional Rubik's cube outlined above and the fact that the conflict 
is no longer a binary one between two warring parties, it is possible 
to take stock of the various drivers of conflict, identify the 
determinative actors on the ground, and conceptualize and execute a 
strategy for defusing the crisis.
    There are five civil wars unfolding within the country's broader 
conflict: a war of resistance against Kiir's regime in Juba by the 
population of the surrounding Greater Equatoria region; a land contest 
between the Dinka and the Shilluk in Upper Nile; an intra-Nuer war in 
Unity; a drive to establish Dinka primacy in Greater Bahr el Ghazal; 
and diversionary ``crises of convenience'' in Lakes and Jonglei that 
have been exploited by Kiir and his allies. Utilizing the insight and 
expertise of a number of South Sudan scholars, the U.S. Institute of 
Peace (USIP) is mapping these conflict theaters and the individuals who 
are decisive in each. Smart diplomacy that accounts for specific 
interests and is backed by the credible threat of punitive consequences 
can leverage these individuals into drastically reducing the violence.
    Third, while there is no shortage of bad actors in South Sudan, the 
U.N. Panel of Experts and other international investigations have 
provided extensive evidence indicating that President Salva Kiir and 
his allies now bear the preponderance of responsibility for the largest 
scale violence, for instigating mass displacements, for inciting tribal 
hatred, and for the obstruction of humanitarian assistance. History 
suggests that successful negotiated settlements to other civil wars 
have depended on a stalemate when the parties no longer believe in the 
prospect of military victory.\3\ However, the absence of an arms 
embargo; the ill-conceived isolation of the main opposition signatory 
to the 2015 agreement, Riek Machar, and by extension his faction of the 
Sudan People's Liberation Movement in Opposition (SPLM/IO); and the 
failure by the guarantors and witnesses of the peace agreement, 
including the United States, to impose any meaningful consequence for 
violations of the agreement, including its reform and security 
provisions, have ceded military dominance on the ground to Kiir and his 
regime, leaving little incentive to compromise.
---------------------------------------------------------------------------
    \3\ Kenneth Pollack and Barbara F. Walter, ``Escaping the Civil War 
Trap in the Middle East,'' Washington Quarterly 38, no. 2 (Summer 
2015): 34; see also I. William Zartman, ``Ripe for Resolution: Conflict 
and Intervention in Africa'' (New York: Oxford University Press, 1989).
---------------------------------------------------------------------------
    We have seen the devastating consequences of this failed approach 
as the regime has continued large-scale military operations throughout 
the country, even during the current rainy season and despite its 
declaration of a unilateral ceasefire. Creating the conditions for a 
negotiated settlement will therefore require either a degradation of 
the Kiir regime's capacities or an enhancement of the opposition's.
    Fourth, external actors--and the United States in particular--
possess multiple leverage points to shift the power dynamic vis-a-vis 
Kiir and Juba and underscore the unviability of a military solution. A 
resolution to the civil war is not possible without the constructive 
engagement of Uganda, Sudan, Ethiopia, and Kenya--four states upon whom 
the United States has unique influence.
    The U.N. Security Council and the AU Peace and Security Council 
must impose an arms embargo on South Sudan, and the United States must 
bring its leverage to bear to enforce that embargo, particularly upon 
Uganda, the main transit point for arms and ammunition to Kiir's 
regime. At the recent Solidarity Summit on Refugees co-hosted in 
Kampala by Ugandan President Yoweri Museveni and U.N. Secretary-General 
Antonio Guterres, donors pledged over $350 million dollars to support 
Uganda in dealing with the refugee flows. Yet weapons transfers to 
South Sudan documented by the U.N. Panel of Experts that have either 
been facilitated through or by Uganda in the last three years suggest 
the price of these sales may equal or even exceed these donor pledges.
    The contradiction whereby Uganda continues to empower and embolden 
Kiir's regime on the one hand and then receives international 
assistance for managing the humanitarian fall-out of the regime's 
actions must be resolved. Uganda is the largest recipient of U.S. 
military assistance in sub-Saharan Africa, and the United States can 
and should make clear that that assistance is contingent on Uganda 
ending its support for Kiir's brutal regime and using its influence on 
Kiir to support a new diplomatic strategy to end the war.
    The United States also has significant leverage over Khartoum as a 
result of the three-month extension of the decision on sanctions relief 
announced by the Trump administration earlier this month. Cooperation 
with the United States on South Sudan was one of the benchmarks for 
sanctions relief under the agreement that the Obama administration 
concluded with Sudan shortly before it left office. Unfortunately, that 
cooperation was defined by the outgoing administration primarily as 
isolating Machar, which, as described above, has proven 
counterproductive and a waste of the political capital that the 
sanctions relief discussion generated. Sudan has taken important steps 
to allow vital cross-border humanitarian access into South Sudan, but 
there is a not a humanitarian solution to the war. The United States 
can and should use the next 90 days to illicit Sudan's cooperation on a 
new political initiative to end the conflict.\4\
---------------------------------------------------------------------------
    \4\ Cooperation on South Sudan was one of five ``tracks'' that 
constituted the agreement between the Obama administration and the 
Sudanese government. The focus in this testimony on the South Sudan 
track is not intended to elevate that above the other four but rather 
to concentrate on the topic of this hearing.
---------------------------------------------------------------------------
    Ethiopia is a vital political and security partner of the United 
States, and any new strategy must build on this important relationship. 
As the chair of IGAD, Ethiopia has led the mediation efforts to end the 
war. With that effort having failed as a result of the parties' lack of 
goodwill, the United States must work closely with Addis Ababa in 
developing a new way forward, including in managing the often-fraught 
dynamics within IGAD.
    Kenya has played a fairly muted role in South Sudan in recent 
years, despite its deep involvement in negotiating the end to the 
Sudanese civil war that ultimately resulted in South Sudan's secession 
from the north. However, much of the ill-gotten wealth of the South 
Sudanese elite responsible for instigating and prosecuting the war is 
held in Kenyan banks, and the U.S. Treasury Department has the capacity 
both to investigate the disposition of these funds and to increase the 
reputational risk to these institutions for complicity in financing the 
conflict. At the very least, Washington could better prioritize South 
Sudan in its bilateral discussions with Nairobi so that Kenya plays a 
more productive role as a partner in U.S. diplomatic efforts.
    The United States can also exert direct leverage on Kiir's regime 
by applying financial pressures that do not require the U.N. Security 
Council, have gone unutilized, and in many cases have not even been 
thoroughly considered in the policy debate. In addition to targeted 
asset freezes on specific individuals, these include modernized 
sanctions, direct anti-money laundering measures, multilateral anti-
money laundering measures, and diplomatic pressure on corporations and 
financial institutions doing business with the regime. The Enough 
Project has done important work to describe at least 15 different 
options for operationalizing these measures, any combination of which 
would be a watershed in terms of international pressure on the 
regime.\5\ The United States can also block the regime's access to 
support from international financial institutions such as the World 
Bank and the International Monetary Fund (IMF).
---------------------------------------------------------------------------
    \5\ Brad Brooks-Rubin, ``Yes, We Have Leverage: A Playbook for 
Immediate and Long-Term Financial Pressures to Address Violent 
Kleptocracies in East and Central Africa,'' The Enough Project, June 
2017.
---------------------------------------------------------------------------
    The United States can further play an important role in defining 
the international legitimacy--or lack thereof--of Kiir's regime, which 
would be instrumental in re-balancing the power dynamics to create an 
environment more conducive to political negotiation. The legal 
legitimacy of the government is in fact questionable for a number of 
reasons. The legitimacy of the government derives from the 2015 
agreement and the transitional government of national unity envisioned 
in that agreement. The government has not, however, implemented any of 
the meaningful elements of that transition and, particularly after 
Machar was expelled from Juba by force and subsequently removed from 
the government, it is neither nationally unifying nor inclusive of any 
elements of the armed opposition. As a result, the government in 
practice satisfies none of the characteristics stipulated for that 
government in the agreement.
    In addition, Kiir's term as president as well as the terms of the 
members of the national assembly--which were set to expire in July 
2015--were extended in spring 2015 by a parliament that did not include 
members of the opposition, who had been expelled at the outbreak of the 
war. However, because the agreement has not in fact been incorporated 
into the constitution, as the agreement itself required, the 
transitional government of national unity has never actually existed as 
a legal entity. Therefore, is the current regime the government whose 
term expired in 2015, the government whose mandate was extended in 
2015, or the government allegedly established by the peace agreement in 
2016?
    It is also noteworthy that there are numerous precedents in 
international law for deeming a government illegitimate if it has 
engaged in international crimes in violation of major treaties such as 
the Geneva Conventions, to which South Sudan acceded in 2012. The AU 
Commission of Inquiry on South Sudan led by former Nigerian President 
Olusegun Obasanjo in fact found that war crimes and crimes against 
humanity ``were committed pursuant to or in furtherance of a State 
policy.'' \6\ As the head of state at that time, Kiir would bear 
responsibility for these crimes.
---------------------------------------------------------------------------
    \6\ ``Final Report of the African Union Commission of Inquiry on 
South Sudan,'' October 15, 2014.
---------------------------------------------------------------------------
    The ambiguity over the government's legitimacy provides the United 
States ample rationale to de-recognize the Kiir regime and/or downgrade 
its diplomatic relationship with it, by for example, choosing to no 
longer accredit an ambassador to South Sudan, as has been the case in 
Sudan since the mid-1990s. The political consequence of the United 
States even considering de-recognition of Kiir and his regime, alone or 
in tandem with partner governments, could be impactful in altering 
Kiir's calculations, not least because it would call into question his 
privileges and immunities as a sitting head of state.
    As a former U.S. diplomat who believes firmly in the value of 
robust American diplomatic engagement around the world, I do not 
propose the withdraw of our ambassador lightly. Nor am I suggesting 
that the U.S. entirely draw down its diplomatic presence in South 
Sudan. However, recognition that the Kiir regime is not a government in 
any real sense could in fact reinforce diplomatic efforts to bring the 
war to an end and salvage South Sudan's sovereignty.
    Fifth, the 2015 agreement provides for the establishment of a 
hybrid court to prosecute those responsible for crimes and human rights 
abuses conducted during the war. The African Union is mandated to 
establish the court, and the chairperson of the African Union is 
mandated to select and appoint the judges, prosecutors, defense 
counsel, and the registrar. While the agreement stipulates that the 
transitional government of national unity should adopt legislation to 
establish the court, the African Union is not constrained by this 
provision and can appoint judges and prosecutors at any time. 
Furthermore, there are a number of legal bases for the hybrid court 
outside of the agreement, meaning that the hybrid court can proceed 
even if there is international recognition that the agreement has 
collapsed.\7\ There are some signs suggesting that the African Union is 
starting to operationalize the court, and these should be both 
encouraged and expedited.
---------------------------------------------------------------------------
    \7\ Kate Almquist Knopf, ``A Path to Justice in South Sudan,'' 
Africa Center for Strategic Studies, July 1, 2017. There are four 
separate legal bases for the hybrid court outside of the 2015 
agreement: First, the African Union Commission of Inquiry, operating 
under the mandate of the African Union Peace and Security Council, 
recommended its creation. Second, the IGAD heads of state, including 
Kiir, signed a protocol in August 2014 containing guidance that 
individuals found by the African Union Commission of Inquiry to have 
committed human rights violations would be prohibited from 
participating in the transitional government of national unity. Third, 
Article 4(h) of the Constitutive Act of the African Union lists as one 
of its principles ``the right of the Union to intervene in a Member 
State pursuant to a decision of the Assembly in respect of grave 
circumstances, namely: war crimes, genocide and crimes against 
humanity.'' This provision is often interpreted as a justification for 
military intervention. However, Article 4(h) also provides a legal 
anchor for a wider range of interventions, including the creation of a 
judicial body to prosecute those that commit these crimes. Fourth, IGAD 
as a sub-regional intergovernmental body exercises ``delegated'' 
functions in relation to regional peace and security. Within the 
African Union's Peace and Security Architecture, regional organizations 
such as IGAD are integral to conflict resolution but occupy a rung 
lower than the African Union, which itself sits in a subordinate 
relationship to the U.N. Security Council. Having delegated the 
peacebuilding responsibilities to IGAD, the African Union is well 
within its authority to take up the entire process itself, if it deems 
warranted.
---------------------------------------------------------------------------
    Importantly, the often-debated tension between peace and justice is 
not relevant in the South Sudan context, where they are uniquely 
reinforcing. As the lack of justice is in fact one of the drivers of 
the war, concrete progress in establishing the court could not only 
have a meaningful impact on the calculations of Kiir and others in the 
regime who fear prosecution but would provide a non-violent mechanism 
for addressing the grievances of a traumatized and victimized society 
where the line between unarmed civilians and armed groups is blurred.
    Sixth and finally, as the largest donor in South Sudan--having 
contributed at least $12 billion in humanitarian, peacekeeping/security 
sector, and transition and reconstruction assistance since 2005--the 
United States can play a determinative role in re-assessing the current 
humanitarian operation. Despite the valiant efforts of the U.S. Agency 
for International Development (USAID) and humanitarian organizations, 
all humanitarian indicators continue to worsen dramatically throughout 
country. The humanitarian operation is in fact under siege, and the 
U.N. Office for the Coordination of Humanitarian Assistance has 
reported that the highest number of humanitarian access incidents so 
far in 2017 occurred just last month.
    As noted above, the Kiir regime is not a willing partner for the 
delivery of humanitarian assistance, is in fact the primary impediment, 
and benefits from the operation's reliance on Juba and government-
controlled infrastructure. The famine conditions in South Sudan are a 
result not of environmental stresses but of the insecurity, forced 
displacement, and destruction of livelihoods caused by the regime's 
policies and its prosecution of the war. New modalities for the 
delivery of humanitarian aid need to be considered in recognition of 
these facts, both to mitigate the benefits that accrue to the 
government under the current approach and to better reach the millions 
of South Sudanese in desperate need of assistance.
    With the requisite political will, the United States has both an 
interest and the assets necessary to lead the international community 
in a new diplomatic initiative to curtail the violence and, ultimately, 
negotiate a credible political transition. Given the degree of extreme 
state failure, any viable transition will likely need to draw 
extensively on temporary external administration--akin to that of 
Bosnia-Herzegovina, Kosovo, Cambodia, East Timor, and Liberia when 
those wars were ended--following a negotiated exit for Kiir, Machar, 
and their inner circles from the South Sudanese political landscape.\8\ 
In order to lead a new diplomatic effort, however, the administration 
needs to designate and empower a senior-level political appointee 
immediately with primary responsibility for South Sudan policy. Such an 
individual must have the stature to deal directly and effectively with 
the regional heads of state.
---------------------------------------------------------------------------
    \8\ Kate Almquist Knopf, ``Ending South Sudan's Civil War,'' 
Council on Foreign Relations Report No. 77, November 2016.
---------------------------------------------------------------------------
    U.S. leadership alone will not be sufficient, however, nor is it an 
alibi for inaction by the United Nations and the African Union, which 
have a moral imperative and an obligation under their respective 
charters to act decisively in South Sudan. U.S. Ambassador to the 
United Nations Nikki Haley rightly demanded an ``operational plan of 
active engagement for peace in South Sudan'' from both institutions in 
April. The limited prospects that the IGAD revitalization effort will 
succeed makes the development of such a plan by the U.N. and African 
Union all the more urgent. In assuming their positions earlier this 
year, both U.N. Secretary-General Guterres and AU Chairperson Moussa 
Faki have prioritized conflict management, and South Sudan--by far the 
most heinous war on the African continent--is a critical test for them 
to deliver on these pledges.
    Let me conclude by again thanking the subcommittee for its 
consistent and sustained attention to South Sudan and for convening 
this hearing today. I look forward to your questions.
    The views expressed in this testimony are those of the author and 
not the U.S. Institute of Peace.


    Senator Flake. Thank you so much.
    Mr. Verjee?

    STATEMENT OF ALY VERJEE, VISITING EXPERT, UNITED STATES 
               INSTITUTE OF PEACE, WASHINGTON, DC

    Mr. Verjee. Chairman Flake, Ranking Member Booker, Senator 
Young, thank you for the opportunity to testify. The views I 
express are my own and not those of the U.S. Institute of 
Peace.
    I would like to share a firsthand personal experience. In 
June 2017, IGAD convened a heads of state summit on South 
Sudan, at least the 10th meeting of its kind since the crisis 
began. Historically the United States played, through its 
Special Envoy, a key role at such events, driving the region to 
work together to pursue common objectives and meaningful 
outcomes.
    On this occasion, the U.S. was represented by locally 
resident diplomats who had, unfortunately, received little 
direction from Washington and were not empowered to offer a 
strategy. The diplomats present were confined to reporting on 
events rather than shaping them towards a better outcome.
    There is no substitute for a dedicated representative to 
conduct the relentless shuttle diplomacy in the region and 
within South Sudan; leverage, cajole, and threaten 
intransigents where necessary; and speak authoritatively for 
the U.S. administration.
    The consequences of a lack of U.S. leadership at the 
present time are acute: a proliferation of competing regional 
initiatives by Uganda, by Kenya, by other actors; insufficient 
urgency in mitigating the worst of the violence; and a regime 
which continues to prosecute the war and fears no consequences 
for recklessness and intransigence.
    There is understandable fatigue and dismay within South 
Sudan. But recommendations such as closing the U.S. embassy or 
ceasing all formal diplomacy and dialogue with the government 
and the opposition would be counterproductive. Such actions 
would not prevent further harm by South Sudanese elites.
    And while the conditions for conflict resolution in South 
Sudan might seem unpropitious, this is precisely why efforts 
must continue. To wait for a purportedly better time only will 
allow further crisis. The last peace process may have failed, 
but it did partially constrain the conflict. Mediation efforts 
matter. Consider as evidence this crude measure: how many 
people vote with their feet. From June 2014 to June 2016, by 
which point the IGAD mediation had largely concluded, the total 
number of persons displaced within and outside the country 
remained roughly the same. Today, a year later, as Senator 
Flake you have mentioned already, there are 4 million IDPs and 
refugees, basically double the situation of a year ago.
    So I am not suggesting the picture a year ago was rosy. 
However, in hindsight, the constraining value of even a 
troubled mediation process can be seen. If there is no avenue 
for genuine dialogue, violence will be pursued.
    At its June summit, IGAD created a new initiative, the 
Revitalization Forum, to restore a ceasefire and implement the 
peace agreement. These are laudable goals, but if present 
deficiencies in the forum's design are unaddressed, this effort 
will fail and the violence will continue.
    U.S. and international support for the forum should be 
conditional on three parameters. First, that the process be 
inclusive. A durable peace cannot be made with only some of the 
players. Second, talks must reconsider provisions of the 
agreement that are no longer fit for purpose. Third, the talks 
must have a very focused and defined time frame.
    The current peace agreement provides a calendar for the 
life of the government, concluding with elections. Credible 
elections are impossible if the war continues, if half the 
population is displaced or in need of assistance. Flawed polls 
will make things worse. Nor should the president's term of 
office be indefinitely extended. So a negotiated leadership 
transition ought to be considered.
    While some sanctions have been imposed on those allegedly 
responsible for atrocities, the measures to date have been 
essentially symbolic. More serious action, such as the seizure 
of assets looted from public resources, the construction of a 
systematic sanctions regime against those with command 
responsibility for violence, and the imposition of an arms 
embargo remain urgently necessary. However, if sanctions are to 
be meaningful, they must serve a broader political strategy, 
not the ends in themselves.
    There is a moral case for demonstrating there are 
consequences to committing mass atrocities and deliberately 
obstructing the peace and deliberately obstructing 
peacekeepers. But without concurrent political efforts, 
sanctions will not compel the changes necessary to bring peace.
    In conclusion, there is no way to describe the situation in 
South Sudan as positive. This is all the more reason to support 
a serious and comprehensive political process. Frustrated 
withdrawal will not end the conflict, nor will it offer hope to 
the millions who are living today in crisis and uncertainty.
    Thank you, Senators, for your continued attention on South 
Sudan. I look forward to your questions.
    [Mr. Verjee's prepared statement follows:]


                    Prepared Statement of Aly Verjee

    Chairman Flake, Ranking Member Booker, and members of the 
subcommittee, thank you for the opportunity to testify today on South 
Sudan. I am currently a visiting expert at the U.S. Institute of Peace 
(USIP), although the views I express are my own.
The Need to Reassert U.S. Leadership on South Sudan
    I would like to share a recent anecdote, my observation as a former 
advisor to the Intergovernmental Authority on Development (IGAD) 
mediation, which brokered the now essentially defunct 2015 Agreement on 
the Resolution of the Conflict in South Sudan (ARCSS).
    In June 2017, IGAD convened a heads of state and government summit 
on the crisis in South Sudan. This was at least the tenth high-level 
meeting of its kind since the conflict began in 2013, in an attempt to 
find a way forward. IGAD remains a crucial forum. Historically, the 
United States, through its Special Envoy, played a key role at such 
meetings; specifically, in driving the region to work together and 
pursue common objectives and meaningful outcomes.
    On this occasion in Addis Ababa, while the United States was 
represented by competent, resident diplomats, they had unfortunately 
received little direction from Washington, were not empowered to offer 
a strategy or undertake most of the critical, necessary tasks of high 
stakes diplomacy. The U.S. diplomats present were confined to reporting 
on events, rather than shaping them towards a clear plan to address the 
crisis.
    There is no substitute for a single, dedicated, prominent U.S. 
representative that can conduct the required, relentless shuttle 
diplomacy to regional capitals and within South Sudan; leverage, cajole 
and threaten intransigents where necessary; and speak authoritatively 
for the administration.
    The consequences of a lack of U.S leadership today, after many 
years of American political and financial investment in South Sudan, 
are acute: a proliferation of competing regional initiatives, 
insufficient urgency in mitigating the worst of the violence, and a 
regime in South Sudan which continues to prosecute a war and fears no 
consequences for its recklessness and intransigence.
    There is understandable fatigue and dismay with South Sudan in 
Washington and elsewhere. Radical recommendations, such as closing the 
U.S. embassy and ceasing all formal diplomatic ties and dialogue with 
the government of South Sudan and the opposition, or expelling the 
South Sudanese ambassador and other South Sudanese diplomatic personnel 
in the United States, would, if implemented, be counter-productive.
    Such actions would not prevent further harm by South Sudanese 
elites and would hamper efforts to end the ongoing conflict and 
therefore damage, rather than advance, U.S. foreign policy objectives. 
Cutting diplomatic ties is easy to do, but ceasing contact now will 
make any effort to mitigate the worst excesses even more difficult.
    The United States has by far the largest diplomatic footprint in 
South Sudan. The complete withdrawal of all American diplomats would 
set back the aid effort, and leave Washington two steps behind 
contemporary developments. Nor is a withdrawal of personnel presently 
warranted by the security situation.
    Being an American diplomat in South Sudan today is a thankless and 
frustrating task; it is also a necessary one, to demonstrate, amongst 
other objectives, that the United States has not abandoned the people 
of South Sudan. It is the embassy, and its staff, who are best placed 
to evaluate the prevailing context and political dynamics. If the 
United States wishes to directly engage with the South Sudanese public, 
promote reconciliation and support grassroots South Sudanese 
organizations and movements working to bring peace, it is embassy and 
USAID staff who play an important role in such efforts.
The High-Level Revitalization Forum and the Importance of Talks
    At the June IGAD summit, the leaders of Djibouti, Ethiopia, Kenya, 
Somalia, South Sudan, Sudan and Uganda endorsed a new initiative, the 
High Level Revitalization Forum. The Forum has the goals of restoring a 
permanent ceasefire; implementing the ARCSS and revising the ARCSS 
implementation timetable. In principle, these are laudable objectives. 
But if the present deficiencies of the Forum's design are unaddressed, 
these limitations could be fatal to the effort. South Sudan's context 
is dynamic, and if the Forum is deeply flawed, it may make things 
worse, by further exacerbating the conflict if, for example, opposition 
movements left out of the process are alienated, or if their grievances 
are left unconsidered.
    Therefore, international political and financial support for the 
Forum, including that of the United States, should be conditional on 
three parameters being implemented by the Forum's regional 
facilitators: inclusive participation; a defined and limited agenda; 
and adherence to the timetable.
    Firstly, the Forum risks being an exclusionary initiative. A 
durable peace cannot be made with only some of the players. Amidst a 
proliferation of armed actors and multiple levels of conflict today, 
relative to the previously, principally bilateral conflict between the 
government and the SPLM/A (In Opposition), it is unclear that the Forum 
process will account for these changes in the conflict.
    While there have been some efforts to work towards unification of 
the now fragmented armed opposition, this is not imminent, cannot be 
externally forced, and may be unsustainable in the long term. Nor is it 
certain the Forum will include key South Sudanese civilian 
constituencies, beyond the men with guns. An inclusive process is 
essential.
    It is worth noting that we have been here before. With the support 
of the U.S. and other partners, IGAD tried to organize an inclusive, 
multi-stakeholder political process in the 2013 to 2015 talks that led 
to the ARCSS. The ambition for an inclusive dialogue was never 
realized. The inclusive format was resisted by the government and the 
armed opposition and poorly and inconsistently implemented by the 
mediators. With my participation, USIP is presently conducting a study 
to determine the lessons to be learned from this mediation process, in 
terms of process design, inclusivity, sequencing and execution. The 
objective of the study is to provide to IGAD, the African Union, the 
United States Government and other interested actors guidance for any 
future mediation process in South Sudan, and beyond.
    To negotiate peace in South Sudan today requires, in part, the slow 
and deliberate engagement at the level of individual commanders, to 
work towards local ceasefires that can be durable despite the national 
circumstances, and in time, perhaps, serve as confidence building 
measures for broader initiatives. Such ceasefire arrangements may be 
independent of the bilateral permanent ceasefire arrangements of the 
security arrangements chapter of the ARCSS. Local conflict mitigation 
efforts are not, however, a panacea. They cannot be considered as 
independent from the national political context, and there are 
overlapping and interwoven features in the different levels of these 
conflicts. Sadly, such efforts result in more failures than successes 
in South Sudan, but when they do work, they can make a meaningful 
difference on the ground.
    Secondly, as key features of the 2015 peace agreement, including 
many security and governance provisions, have been overtaken by events 
and are no longer fit for purpose, calling for full implementation of 
ARCSS is neither realistic nor desirable. Some armed groups have been 
incentivized to emerge by certain provisions of the Agreement, such as 
on military cantonment. These parts of the Agreement clearly need 
amendment.
    The Forum's agenda should be defined and limited, while maintaining 
the essential set of reform and transitional justice commitments 
specified in the ARCSS. The government should not be allowed to escape 
its legal and political obligations to implement these commitments. 
Economic, humanitarian and transitional justice reforms remain vitally 
important, and if abandoned will set the stage for further poor 
governance, an even broader economic collapse, and continued impunity 
and a lack of accountability for years to come.
    Thirdly, the timetable for the Forum should be maintained, to 
prevent it from becoming a protracted attempt to frustrate peace by 
intransigent parties. If there are no consequences to delay and the 
Forum continues indefinitely, there will be little incentive to 
participate constructively. Political and financial support for this 
process cannot be indefinite.
    While it may appear that conditions for conflict resolution in 
South Sudan are presently unpropitious, this is precisely why efforts 
must continue. To wait for a better, purportedly riper time to attempt 
a new conflict resolution effort would only allow the humanitarian, 
economic and security situation to further deteriorate. Waiting for a 
new political movement or a new class of leaders may be years, if not a 
generation away. Neighbouring states, unconstrained by a collective 
mediation effort, would only further pursue their individual bilateral 
interests. The last peace process may have failed, but it did at least 
partially constrain the escalation of the conflict. Mediation efforts 
matter. Not succeeding on the first attempt does not mean there should 
be no attempt to try again.
    Consider as evidence an admittedly crude measure: the number of 
people voting with their feet, and fleeing their homes. In June 2014, 
there were a total of 2.35 million displaced persons in South Sudan and 
neighbouring countries. By June 2016, at which point the majority of 
the IGAD-mediation had occurred, the total number of displaced persons 
remained roughly the same.
    Today, just over a year after the peace agreement's implosion, 
there are almost 4 million IDPs and refugees. Absent a change of 
course, the projections are the numbers will only continue to rapidly 
climb.
    I do not suggest the picture was by any means rosy in South Sudan 
one year ago, or that the link between political dialogue and 
displacement is entirely causal. However, the situation is 
indisputably, undeniably, now far worse.
    In the absence of a political process, mere statements of 
condemnation from international or regional institutions are 
insufficient to inhibit those committed to fight. In hindsight, the 
constraining value of even a troubled regional mediation process can 
clearly be seen - for as long as there is no avenue for genuine 
political dialogue, violence will be pursued. This argument alone is 
sufficient to call for a new or renewed process of political mediation, 
albeit with conditions of the kind outlined above.
    In the event the Forum produces a meaningful result, reform to the 
peace agreement's supreme oversight body, the Joint Monitoring and 
Evaluation Commission (JMEC), where I served as deputy and subsequently 
acting chief of staff until my expulsion by the Government of South 
Sudan in April 2016, must be contemplated.
    While the principal responsibility for continued conflict and 
systematic misgovernance rests on the South Sudanese political elites, 
JMEC has failed to live up to expectations. It has not moved quickly 
enough to take corrective action at moments of acute crisis, and not 
held the parties to account when they dishonored their obligations. 
There has been insufficient backing for JMEC from the IGAD member 
states and the African Union when the South Sudanese failed to comply 
with the terms of the agreement. When JMEC itself came under attack, 
with its key personnel expelled from the country, JMEC's regional and 
international backers did not protest.
Elections and the End of the Agreement on the Resolution of the 
        Conflict in South Sudan (ARCSS)
    Even if implementation of the ARCSS had been fully pursued in good 
faith, it would at best have been an interim, transitional solution. 
The ARCSS foresaw a process of constitutional reform, before national 
elections. South Sudan achieved independence through a largely 
democratically legitimate exercise, the 2011 independence referendum.
    The ARCSS remains relevant because the present government's 
legitimacy is largely derived from the terms of the Agreement. This 
explains why the government professes its continuing adherence to the 
agreement while routinely violating its terms. ARCSS provides a 
timetable for the life of the government, concluding with elections 60 
days before the end of the Transitional Government of National Unity, 
now due in August 2018.
    Yet, credible elections are not possible for as long as the civil 
war continues, when half the population is displaced or in need of 
humanitarian assistance and with the spectre of famine continuing to 
loom, even if the technical definition of famine is no longer being 
met.
    South Sudan is an increasingly repressive place. Freedom of the 
press and freedom of assembly have been severely restricted. Domestic 
and international journalists have been intimidated, harassed, 
arrested, or expelled. Many media houses have been closed or operate 
under unreasonable limitations. The security services have blocked 
access to prominent South Sudanese online media from inside the 
country. Under present conditions, there can be no freely expressed 
plurality of political views, particularly from minority parties and 
candidates. Given the conflict and humanitarian crisis in many areas, 
there is no environment to credibly hold an election campaign.
    The door should not be left open to premature, flawed elections. 
While elections cannot be held as scheduled, nor should the incumbent 
president's term of office be extended indefinitely. A negotiated 
leadership transition ought to be considered. Any decision to delay 
polls should be transparent and inclusive of a wide spectrum of South 
Sudanese actors, both civilian and armed, to avoid a further, 
electorally precipitated crisis, which could contribute further to 
crisis and conflict.
    The United States, United Kingdom, Norway and the European Union 
recently issued a joint statement declaring ``discussion of elections 
in the foreseeable future as an unnecessary diversion from the primary 
goals of achieving peace and reconciliation.'' Other donor nations must 
be encouraged to adopt the same positions, as should the African Union, 
IGAD, East Africa Community (EAC) and International Conference of the 
Great Lakes Region (ICGLR), all organizations of which South Sudan is a 
member.
    It must also be clear that the United Nations, which was 
instrumental in organizing and supporting both the last national 
elections in 2010 and the 2011 independence referendum will not provide 
any technical assistance to any ill-conceived electoral process, 
whether through the United Nations Mission in South Sudan (UNMISS) or 
the United Nations Development Programme (UNDP).
The United Nations, African Union and Sanctions
    As bad as things are in South Sudan, the humanitarian situation can 
always worsen: more can go hungry, more can flee their homes, more 
children can lose the chance at an education. The United Nations 
Mission in South Sudan (UNMISS) plays a vital role in the protection of 
the more than 200,000 South Sudanese civilians taking shelter at UNMISS 
bases across the country. But UNMISS can and should do more. While it 
is not the only relevant intervenor, UNMISS could engage more 
substantively in local mediation and ceasefire efforts, as a 
facilitator, convener and mediator, given it is the only international 
actor with a significant presence throughout the country, and noting 
the long history of instability and conflict at a local level.
    In the event that the Revitalization Forum fails, IGAD has 
indicated it plans to hand over the South Sudan file to the African 
Union (AU). Although this change of forum may seem to overcome existing 
regional interests and differences, at this stage, the AU has no 
operative plans to organise a credible mediation effort, and the 
national interests of neighbouring states in South Sudan will not 
dissipate, even if the AU were to play a leading mediation role. 
However, consideration could be given to support work now to assist the 
African Union Peace and Security Division with planning for a new 
political approach in South Sudan, should the Forum effort be 
unfruitful. Such an approach could include a robustly empowered 
mediator, without competing responsibilities or obligations, supported 
by a team of dedicated and competent political support staff, drawing 
on expertise from the continent and beyond.
    While it is essential that the AU play a more active and prominent 
role in brokering peace, to date it has been slow to act on the sole 
responsibility placed on it by the ARCSS, to establish the critically 
important Hybrid Court for South Sudan. The AU can and should do more 
to put in place both a political and technical strategy for the Court's 
establishment, to ensure this commitment to accountability is not lost, 
and the United States should continue to forcefully advocate for this 
commitment.
    Should the AU assume responsibility for a future peace process, a 
strong partnership with the United Nations will be vital. U.N. 
resources assigned to South Sudan, whether UNMISS, the U.N. Office to 
the African Union, or other agencies, should be coordinated and 
integrated into a single peace strategy. This would maintain oversight, 
monitoring, and supportive action by the United Nations Security 
Council, as an ongoing threat to international peace and security.
    While some individual sanctions have been imposed on South Sudanese 
allegedly responsible for atrocities by the United States and the 
European Union, these measures have to date been essentially symbolic. 
More serious action, such as the seizure of assets looted from South 
Sudan's public resources, the construction of a more systematic 
sanctions regime against those who organise and direct violence, and 
the imposition of an international arms embargo, for its preventive 
value, remain urgently necessary. If sanctions are to be meaningful, 
they must be internationally coordinated, and be in service of a 
broader political strategy rather than ends in themselves.
    While the U.S. can and should impose sanctions unilaterally, with 
the moral case for demonstrating that there are consequences for mass 
atrocities and deliberate and sustained obstruction of the peace 
process, without concurrent efforts to reinforce a political process, 
sanctions are not likely to compel the changes necessary to bring 
peace.
    In conclusion, there is no way to describe the situation in South 
Sudan as positive, which is all the more reason to support a serious, 
comprehensive, sustained political process, as imperfect as such an 
endeavour may be. There are many steps the United States can still take 
to bolster its diplomacy and political engagement to address this 
crisis, in concert with the region, the continent and other 
international partners. A policy of frustrated withdrawal will not 
address the underlying dynamics of conflict in South Sudan. Nor will it 
offer hope to the millions of South Sudanese who live today in crisis 
and uncertainty.
    Thank you for your continued focus and attention on South Sudan. I 
look forward to answering your questions.
    The views expressed in this testimony are those of the author and 
not the U.S. Institute of Peace.


    Senator Flake. I thank all of you for your testimony. I 
appreciate it. I think all of us have benefited from it, and we 
will start a round of questions now.
    Mr. Meservey, you mentioned agreements reached with parties 
that are committed to violence will simply fail. That seems to 
be the case particularly with the government there. But you 
also mentioned that we have to punish, and we have not punished 
those who have not upheld their agreement. What are effective 
punishments that we can do? What leverage do we have? Is it 
asset seizures? What will be effective in your view?
    Mr. Meservey. Yes, I think asset seizures are part of that. 
I think we all mentioned that actually in our testimony as one 
thing that the U.S. can do.
    In my written testimony, I advocate for symbolic gestures 
like shuttering the South Sudanese embassy here in Washington, 
D.C., expelling all the South Sudanese diplomats. That would 
send a message that the Kiir government no longer has the favor 
of the world's most powerful government.
    I think that we can bypass the central government and speak 
directly to the South Sudanese people, as I mentioned in my 
oral testimony.
    The Kiir regime, every time it sits across the table from a 
diplomat from the United States or from Europe or wherever, 
derives a certain amount of legitimacy. The optics of it send a 
message that the international community believes that this 
man, Salva Kiir, is a legitimate and honest interlocutor. No 
matter the statements we put out to the contrary, the mere fact 
that we speak with him and treat him as if he is part of the 
solution suggests that we believe he is part of the solution. 
He is not. He is a profound part of the problem. So continuing 
to talk with him in the belief that he is going to see the 
light or change course, when he has shown over and over again 
he has no intention of doing so, is a mistake.
    And there are costs to having those sorts of negotiations. 
It is not simply a net neutral to talk, to engage in pointless 
negotiations. It drains U.S. credibility to engage in a process 
that has no chance of success, and that is particularly 
important because there might be a time down the road where the 
context is right for a solution, and the U.S. will need all the 
credibility it has to achieve that solution.
    Senator Flake. Thank you.
    Mr. Knopf, what is your thought about our continued 
recognition of the government? Are we lending an undeserved 
credibility? And if we were to cut that recognition, would 
others seek to fill the void? China, Russia, and others? Give 
your assessment of that type of punishment.
    Mr. Knopf. Thank you, Senator.
    I think it is unquestionably an illegitimate regime, and I 
think it is incumbent on the United States, given the magnitude 
of the crimes that the regime has committed and continues to 
commit, to not undertake a business-as-usual approach to its 
diplomatic engagement.
    As a former U.S. diplomat, I believe very strongly in 
robust U.S. diplomatic engagement around the world. I think 
there is tremendous value in having a U.S. diplomatic presence 
in South Sudan if for no other reason than having as many eyes 
on the situation on the ground as possible is to our benefit 
and to the benefit of the people of South Sudan, as well as our 
ability to engage with those who are trying to build a better 
future for their country as much as possible. But there are 
ways of doing that without conferring undue legitimacy as 
Joshua suggested, on a government that fundamentally, both 
legally and politically, has delegitimized itself. And while 
Salva Kiir's calculation--or Salva Kiir himself is quite 
intransigent, as Aly pointed out. The United States as a world 
power can send a very significant signal to neighboring 
governments, to our European partners and other donors by 
recognizing this government for what it is, which is a brutal 
regime that continues to murder and plunder its people. And 
perhaps more importantly, it is not just for cathartic purposes 
that we should do that. It creates a political context, as I 
suggested in my testimony, that I think will be more conducive 
to the kind of negotiated settlement that we all believe is so 
urgently necessary for South Sudan.
    Senator Flake. Thank you.
    Mr. Verjee, with regard to an arms embargo, it is not just 
those that you would expect who have opposed an armaments 
embargo, but countries like Japan have also. What is the reason 
for that? Why are we not able to get an arms embargo, an 
effective one, with regard to South Sudan?
    Mr. Verjee. Essentially the question comes down to the 
regional support for an arms embargo. The lead of the region is 
followed by then other members of the Security Council, and 
those would be the Chinese and the Russians. Without the 
support of the region--and there is still great preventative 
value in having an arms embargo there. There are plenty of arms 
in South Sudan. But the government continues to acquire arms. 
It continues to spend money on arms. It continues to get more 
sophisticated arms. And so there is a real need. And that is 
not something which has been very well accepted by the regional 
powers. The Russians have lost helicopters, shot down by arms 
in South Sudan under peacekeeping flags and yet are not willing 
to move.
    I think there are arguments that can be made. I think the 
argument has to be attempted again. The effort that was made in 
December to pass that resolution at the Security Council did 
not succeed, but that is not a reason to abandon the effort.
    Senator Flake. Thank you.
    Mr. Knopf, you talk a lot in your testimony about the 
potential of regional conflict coming. How likely is that, and 
where is that likely to start? I mean, Uganda and others have 
not been shy about sending troops across borders. Is that where 
it is likely to start, or where is the biggest flashpoint?
    Mr. Knopf. Thank you for the question, Senator.
    It is always hard to predict these sorts of things with a 
100 percent degree of uncertainty. I think as I sort of 
outlined in my testimony, you have a number of dynamics that 
are coming into play. I think one of the most worrisome by far 
is the deepening confrontation between Ethiopia and Egypt, 
which has led both to consider and sometimes, in some 
instances, engage sort of proxy forces to hedge their bets 
against each other. And that force is drawing others, layered 
on top of a number of historical competitive issues and trends. 
That deepens the volatility and multiplies the potential fuses 
that could spark this conflict.
    And on top of that, you have a situation where, as has been 
mentioned on a number of occasions today, the sheer number of 
refugee flows out of South Sudan are astounding. And those 
flows are going into some of the most volatile regions of South 
Sudan's neighbors, northern Uganda, western Ethiopia, eastern 
DRC, parts of the Central African Republic, and the southern 
part of Sudan. These are not stable regions, and they have 
their own very deep-seated tribal fissures and stresses. And so 
those will only be exacerbated the more that the South Sudanese 
essentially abandon their state.
    So there is any number of potential sparks. I think the 
point that I am trying to convey is that while South Sudan may 
appear as sort of a global backwater amidst, sadly, a number of 
very tragic conflicts, the potential for it precipitating a 
much more devastating war is quite high because of all of these 
dynamics that we have just discussed.
    Senator Flake. Thank you.
    Thank you for your indulgence. Senator Booker?
    Senator Booker. I am happy to defer to you if you have to 
go. I know there are multiple hearings at the same time, 
Senator Young.
    Senator Young. I am good. Thank you.
    Senator Booker. Thank you very much.
    Gentlemen, I just want to start with the larger issue. 
There is wisdom to my colleague who I always see as a peer, but 
he is a grandfather. So I now think of him as a lot older than 
me. But there is wisdom in not having administration 
representatives here in the sense that there is really nobody 
within the administration that is focused on this issue. And it 
is my perspective--and you can disabuse me of that--that every 
month that we wait for this administration to craft a policy 
and a strategy to deal with this issue is an absence of 
American leadership and is the allowance of the crisis to 
fester even more.
    And so I just want have maybe get you each to weigh in for 
me on is my sense of alarm justified and the urgency that I am 
trying to communicate to the Secretary of State, to the 
President of the United States about getting their focus on 
this issue. Maybe we can go, starting with Aly, Mr. Verjee. 
Just would you please let me know am I right to be seriously 
concerned that the United States of America has not appointed a 
Special Envoy that is not focused, does not have a strategy on 
this issue, and that is a factor that is allowing the crisis, 
the humanitarian crisis, even just the attacks? This is the 
number one place on the planet where aid workers are being 
attacked. Is my concern merited?
    Mr. Verjee. Absolutely, Senator Booker, it is. And most 
importantly, this is the signal that the South Sudanese 
Government, those who are fighting, see. This is the signal 
that the region sees. So right now, the U.S. Ambassador in Juba 
is the senior official, and everybody knows that whatever she 
says does not come with any support of this administration or 
the State Department because of the vacancies and absences and 
so on. And so she can say the United States does not accept 
this ceasefire violation, and she can say that you must 
implement the peace agreements. But everybody in South Sudan 
knows that there is nothing that backs her up.
    The region knows as well that there is nobody to speak with 
a clear voice for the U.S. The partners of the United States, 
beyond the region internationally, who have been so 
instrumental in South Sudan, also know that. There are envoys 
meetings that happen, and the U.S. does not have the 
representation requisite at those meetings. I mentioned the 
summit and what happened there.
    So definitely, the fact that there is an absence of U.S. 
political and diplomatic leadership is a serious problem and it 
is a serious signal to South Sudan that, yes, we will continue 
to feed you, we will continue to provide humanitarian 
assistance, but in terms of a political strategy, you will just 
have to keep waiting.
    Senator Booker. Mr. Knopf?
    Mr. Knopf. Your alarm is very much warranted, Senator. And 
let me just make one point.
    I understand there is a very live discussion here in the 
Senate about the role of special envoys. I think it is a very 
important discussion. I do not think we have time in South 
Sudan for that discussion to delay the designation, as I 
suggested in my testimony and as Aly is suggesting, of a senior 
level official in the administration to take up this issue who 
has the stature to engage in the region in a manner that can 
move the ball. And that involves being able to have some 
difficult conversations with the Prime Minister of Ethiopia, 
with the President of Uganda, with the Sudanese, with the 
Kenyans, et cetera.
    And there are various models over the last two 
administrations for doing that, including sitting officials who 
are designated as the point persons for a particular file, 
including on the Sudans, without being a special envoy. So I 
would just encourage all of us to consider how to address the 
urgency that you so passionately spoke about, Senator, in a 
meaningful way.
    Senator Booker. And before I go on to Mr. Meservey, could 
you please just put a little more color on the consequences in 
terms of humanitarian efforts, the consequences in terms of 
violence, the consequences in terms of ethnic conflict, the 
consequences--especially your testimony was really enlightening 
to me when I read it because I just did not think of the larger 
regional conflicts that are going on and brewing--the 
consequences potentially of the regional conflicts, and the 
consequences on the destabilization of those regional--could 
you just help me understand?
    Let us imagine that it takes--or we may have an August 
recess coming up. That is questionable. September, October, if 
we do not get somebody in place by 2018, just a little bit 
more, can you tell me what your expert perspective is on the 
consequences of the absence of American leadership going into 
2018?
    Mr. Knopf. Look, the costs of this war to the people of 
Sudan are appalling. I think one of the things that has long 
been missing in South Sudan is that there has not actually been 
a serious effort to count the number of civilians who have died 
in the last three and a half years. The few efforts or sort of 
proofs of concept to that actually suggest that because the 
vast majority of deaths in South Sudan are civilians, where in 
contrast to Syria, many of the deaths are combatants, we may be 
looking at a civilian death toll that is akin to the war in 
Syria; but among the population that is half its size. So as 
you see the depopulation of the state, as you see death and 
destruction on this level, there is no way there are not 
lasting consequences in the region and for the neighboring 
states, as I suggested, in terms of exacerbating some of the 
innate weaknesses of those states or portions of those states.
    Again, I am hesitant to make too many analogies to Rwanda 
because they are very different circumstances. But we do only 
need to look at that example where a mass exodus of people 
ultimately contributed to precipitating a war in Congo that 
drew in nine other African governments. And again, the history 
is not--it rhymes rather than repeating itself. Right? But it 
may be rhyming in this sense.
    And more broadly, the population of the Horn of Africa is 
set to increase by 40 percent in the next 15 years and by 100 
percent by 2050. That is an enormous population increase that 
many of the states, probably all of the states, do not really 
have the capacity to manage. So layer on top of that this 
sinkhole in South Sudan, other conflicts in the region, 
Somalia, with the Kenya elections coming up. We have some of 
the intersections of regional interests, I suggested, around 
the war in Yemen just across the sea. This is, in some ways, an 
under-appreciated world hotspot with grave consequences for 
U.S. interests.
    Senator Booker. I appreciate that.
    And with the indulgence of my colleagues, I would like to 
get an answer to my question from Mr. Meservey. I just want you 
to know, sir, I made the mistake of reading your testimony when 
I was in a particularly pugnacious mood, and you got me fired 
up. You call for incredibly just aggressive actions, but the 
whole time I am reading about it, if you are right--and I have 
some concerns and questions and we may not have the time to get 
into them, my questions about your testimony. To execute that 
kind of aggressive strategy that you articulate, you got to 
have some kind of leadership guts and courage here in the 
United States, which we lack. So what is your perspective on 
the lack of an envoy or particularly American leadership that 
is focused even on this area of crisis?
    Mr. Meservey. Well, thank you. I was in a bit of a 
pugnacious mood when I wrote the report, as you probably picked 
up, after reading too much about what was going on there.
    Yes, it is a very aggressive policy, strategy that I have 
laid out. I think we need an aggressive, profound shift in what 
we have been doing, given the scale of this disaster that we 
are facing, given the scale of the crimes, the breadth of the 
humanitarian crisis. I do not see anything other than very bold 
action helping us at all here. I do not want to say ``solve'' 
because I think South Sudan is many, many years away, 
unfortunately, from anything we could call a solution.
    So I think my colleagues covered sort of the breadth of the 
crisis very well. I will add just two points, one being that 
criminality is increasing in the country dramatically. They 
have had a complete breakdown of the rule of law, unsurprising. 
So it is not just armed forces victimizing civilian 
populations. You again have criminality throughout the country.
    And then a second point is Kenya, Ethiopia, and Uganda are 
all heavily engaged in the U.N. peacekeeping mission or the 
U.N.-sponsored mission in Somalia. And they are fighting a very 
committed terrorist organization.
    Senator Booker. If I can interrupt before Senator Young 
regrets that he did not take my offer to go before me. 
[Laughter.]
    Senator Booker. But just the question--I just ask if you 
could do it in one or two sentences. If we do not have a 
special envoy or someone focused on crafting the strategy by 
2018, that is a serious--I do not want to use the word 
malfeasance,'' but a serious lack of American leadership. Do 
you agree with me on that?
    Mr. Meservey. I think we need a strategy with people in 
power to execute it. Yes.
    Senator Booker. I do not want to press upon you the special 
envoy. But you just basically said to me, yes, we need a 
strategy and people in power to execute it. If we wait until 
next year, we are losing opportunity and people will suffer as 
a result.
    Mr. Meservey. Yes. And I think that has been the case for 
years, unfortunately. I think we have been adrift.
    Senator Booker. Thank you, sir.
    Thank you, Mr. Chairman, for your indulgence.
    Senator Young. My turn. Well, thank you.
    Senator Flake. Mr. Young, yes.
    Senator Young. I thank all our witnesses for your really 
informative testimony.
    In your prepared statement, Mr. Meservey, you note that a 
U.N. fact finding mission has determined ethnic cleansing by 
killing, starvation, and rape is occurring in parts of South 
Sudan and warned of the potential for genocide. Is that what 
you said? Potential for genocide.
    We had a subcommittee hearing, a distinct subcommittee 
hearing that I chaired on July 18, related to the four major 
famines, this being one of them, occurring around the world and 
related threats to U.S. national security, broader regional 
security, and so forth. And Executive Director Beasley of the 
World Food Programme there echoed your point, Mr. Meservey, 
indicating that atrocities are occurring on a daily basis in 
South Sudan, perhaps bordering on genocide.
    So my question for all witnesses is in your professional 
judgment, do you believe the Government of South Sudan has 
committed or is committing, is carrying out genocide?
    Mr. Meservey. I will start on that one.
    So as you noted, I was quoting a U.N. official who made 
those remarks. The designation of genocide is actually a legal 
question. As you know, there is a very specific definition, and 
I am not a lawyer so I really hesitate to wade in, particularly 
given how fraught that term is and the implications that it 
carries. I think it is very possible that in retrospect, people 
might look back and say there was a genocide. But I think more 
work needs to be done, more documentation, and the lawyers need 
to look at it before anyone can say, yes, this is a genocide.
    Senator Young. For better or for worse, I am a lawyer. I do 
not specialize in this area, never did. I was a country lawyer. 
I worked on contracts and people with leaky roofs and stuff 
like that.
    But, nonetheless, I do understand this notion of intent, 
and that is required for genocide under Article 2 of the 
Convention on the Prevention and Punishment on the Crime of 
Genocide, dating back to 1948. Any of the follows acts 
committed with the intent to destroy, in whole or in part, a 
national, ethnic, racial, or religious group. And some of these 
acts we know have occurred: killing members of the group. So 
there. The action has occurred. So the question is one of 
intent, and so evidence would have to be forthcoming that there 
was an intent to destroy, in whole or in part, a national 
ethnic, racial, or religious group.
    So you are right. This would have to be litigated to reach 
any level of finality. I am asking for your professional 
judgment, informed by readings, visits, and consultations with 
other experts as to whether or not there is evidence of intent. 
Mr. Knopf?
    Mr. Knopf. Thank you, Senator. That is a very important 
question. And I think I would answer it two ways.
    One, I think unquestionably there has been an intent by the 
government, which is dominated by a single tribe, the Dinka, to 
change the demographic landscape in certain parts of the 
country. And one of the underlying drivers of this conflict are 
a number of land disputes I allude to a little bit in my 
written testimony. So that has resulted in ethnic cleansing in 
order for one tribe to take territory from another. So there is 
very clear intent in that regard.
    The second thing, however, that I think complicates a 
clear-cut answer to your question, unfortunately, is that as 
the centrifugal forces continue to accelerate that are tearing 
the country apart, you are starting to see deepening fissures 
within tribes. So the President, Salva Kiir, for example, is a 
Dinka from one part of South Sudan. Even just in the last 
couple of months, there has been an intensification of rivalry 
and competition with another subset of the Dinka tribe, both 
from two different parts of the country. And that sort of power 
struggle, as it plays out--each has tried to play off then 
other tribes against each other for their own advantage. So it 
is not a binary context, say, in the way that--a contest, 
rather, say, in the way that Rwanda was where you had the Hutus 
and the Tutsis on one hand. So it is a slightly more complex 
landscape which makes that judgment a bit harder to arrive at.
    I hope that somewhat helps fill out the picture for you.
    Senator Young. For a panel of non-lawyers, it actually 
sounded quite lawyerly. Right? You qualified everything.
    So, Mr. Verjee?
    Mr. Verjee. Thank you, Senator. I am not a lawyer either, 
but what I would say is that there have certainly been crimes 
against the laws of war. There have been war crimes, most 
probably being crimes against humanity of some kind or another. 
There have certainly been mass atrocities.
    I will not comment on the intent question of genocide. What 
I would say is that there has been very specific ethnic 
mobilization of armed actors by a number of different sides. 
There has been a very strong character to the war, which has 
become increasingly polarizing amongst many, many communities 
so that people do not consider themselves South Sudanese first 
but whatever ethnic group they come from. If genocide is to 
occur, it is going to be on ethnic grounds rather than on 
religious or nationality grounds. It is going to be on the 
ethnic dimension of it.
    So as bad as things are in South Sudan, it can always get 
worse, and this is really the problem that in terms of 4 
million IDPs and refugees to date, it could be 5 million by the 
end of the year, et cetera.
    Senator Young. So I am going to turn to the issue, with the 
chairman's indulgence, of sanctions, seeing as I will run over 
my time here.
    But, Mr. Meservey, again in your prepared remarks, you 
write, ``the only way to move the South Sudanese leadership now 
is through coercive engagement.'' You recommend building a 
comprehensive sanctions regime.
    Mr. Knopf, your statement--in it you suggest that 
modernized sanctions are needed.
    And, Mr. Verjee, you were very clear in indicating that if 
a new sanctions regime is imposed, in parallel you have to have 
a political effort that is really ramped up. So you indicate 
that current sanctions have been essentially symbolic.
    And so what specific new sanctions--I do not believe anyone 
has spoken to this--for each of the panelists, do you believe 
that the U.S. should impose on the South Sudanese regime?
    Mr. Verjee. Let me give you a specific example of what I am 
thinking about. Right now, if there is a violation of the 
ceasefire--and we know there are violations of the ceasefire--
the response from the United States and from other 
international actors is a statement basically. What I am 
suggesting is that every time there is a violation, we have got 
to actually demonstrate a specific consequence. Now, there 
could be a range of things. It could be designation under 
Treasury rules to say, well, this ceasefire monitor report has 
determined so and so is responsible, and therefore, we are 
going to go after their assets.
    What I think the problem with sanctions has been has been--
you know, they have been intended as a demonstration of signals 
of saying, okay, well, we are not happy with you. And then 
there is sort of nothing else to it. What has to happen for 
sanctions to be effective is that they have to graduate. They 
have to be incremental. They have to go further. They should 
target people who are involved and connected with. They should 
go after, in consultation with the region, the assets, for 
example, that are held in regional banks that are mostly held 
in U.S. dollars. So there are things that the U.S. can 
specifically do both in the financial sector and in terms of 
national legislation here.
    Senator Young. So the general strategy is they need to be 
imposed in response to particular actions or initiatives on an 
ongoing basis and then ratchet it up. Or in response to good 
behavior, perhaps then they are pulled away.
    Mr. Verjee. I mean, for example, if today----
    Senator Young. Which is symptomatic, if I can interject, of 
what Senator Booker was discussing, is we do not have someone 
intently focused on this.
    Mr. Verjee. I mean, if today the U.S. were to sanction one 
minister or senior official in the government, the basic effect 
of that is to weaken him vis-a-vis his peers who are still a 
whole bunch of bad guys. It has got to be clear that we are not 
just going to target one person and then that is it. There is a 
whole group of people who are responsible, and a strategy is 
why it is very important. So sanctions are a tool to that 
strategy.
    Mr. Knopf. If I could, Senator, just add very briefly. I 
completely agree with what Aly has said in that regard. 
Sanctions are not a silver bullet.
    I would add, however, that the, frankly, shameful absence 
of any consequence from the United States or anybody else in 
the international community in the last 3 and a half years 
means that we should not underestimate the impact that even 
minor consequences can have at this moment. There is a lot of 
low-hanging fruit out there that can send a significant signal 
I think meaningfully as part of a political process either to 
the belligerents within South Sudan or to the region. And as 
Aly alluded to, the United States has a unique capacity to 
create great reputational risk on the banks in the region who 
are holding ill-gotten gains of this war that are also being 
used to continue to finance and prosecute that war, and we 
should deploy that capacity far more effectively, obviously in 
the context of a broader strategy.
    But to date, the sum total of international consequence was 
the Security Council's designation almost 2 years ago, more 
than 2 years ago, of six mid-ranking commanders on both sides 
of the war. Given the magnitude of the crisis we are discussing 
today, that seems not commensurate with the challenge, to say 
the least.
    Senator Young. So I will just close, going over 4 minutes 
over my time--I am grateful to the chairman for allowing me to 
do so--and indicating that this committee collectively has 
signed onto a letter received by our State Department calling 
for a diplomatic surge. Just about every member of this 
committee signed onto that letter, have passed a resolution out 
of this committee--it has not yet made it to the floor--calling 
for a diplomatic surge not just in South Sudan but also in 
Nigeria, in Somalia, and Yemen. So I could not agree more with 
some of the comments that have been made here today, that there 
needs to be a focused strategic effort on each of these 
situations because it is undermining--it is not just an affront 
to our values. It is not just something that could lead to 
broader regional conflict and human tragedy. It also undermines 
our national security as we continue to see failing or failed 
states in that region. So I would hope that we act boldly as 
you are encouraging us to do so.
    Senator Flake. Well, thank you. Thank you, all of you. I 
wish we could spend more time on this. Unfortunately, we have 
got the nominations hearing that we have got to do before votes 
start in half an hour. But just on behalf of the committee, 
thank you for your expertise. This certainly has given us 
information.
    I hope that the administration is watching. I hope that 
they understand the urgency of taking bold action, as all of 
you have advocated. I think, Mr. Verjee, you said something 
telling. You said as bad as things are, they can always get 
worse. And I think that, obviously, we have to look closely at 
the regional implications of this conflict, if the in-country 
consequences are not dire enough.
    So thank you for your testimony.
    Senator Booker?
    Senator Booker. I would just ask to have a few seconds to 
just echo the sentiments already expressed. And thank you all 
for your expertise. But it was clear in reading all of your 
testimony, even the testosterone-laden testimony of Mr. 
Meservey, that this is very personal to you all. You all care 
about these issues, and you have a lot of compassion and heart.
    I just want to reaffirm the bipartisan commitment you see 
on this committee not to let this issue slip. We will be 
pressing very hard that this administration lean on the wisdom 
that is being expressed by people like yourselves to institute 
a policy. This is an anguish and tragedy of global proportions. 
The suffering here should alert all people of good conscience 
and humanitarian concern, and it should compel us to act, not 
just to bear witness to tragedy, but to act. And I am just 
grateful that you all passionately feel the same. And I commit 
to you that this committee, in a bipartisan fashion, will press 
to try to find some end to the suffering and greater justice 
for that region.
    Thank you.
    Senator Flake. Well said.
    On behalf of the committee, thank you for your testimony.
    This hearing stands adjourned.


    [Whereupon, at 10:55 a.m., the hearing was adjourned.]




                                  [all]
</pre></body></html>
